<html>
<title> - MAKING INDIAN COUNTRY COUNT: NATIVE AMERICANS AND THE 2020 CENSUS</title>
<body><pre>[Senate Hearing 115-210]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-210

   MAKING INDIAN COUNTRY COUNT: NATIVE AMERICANS AND THE 2020 CENSUS

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  



                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-840 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b5c4b547b584e484f535e574b1558545615">[email&#160;protected]</a> 






                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MIKE CRAPO, Idaho                    TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 14, 2018................................     1
Statement of Senator Cortez Masto................................    59
Statement of Senator Heitkamp....................................     3
Statement of Senator Hoeven......................................     1
Statement of Senator Murkowski...................................     4
Statement of Senator Smith.......................................    58
Statement of Senator Udall.......................................     2

                               Witnesses

Gore, Carol, President/CEO, Cook Inlet Housing Authority.........     9
    Prepared statement...........................................    11
Jarmin, Ron S., Associate Director for Economic Programs, 
  Performing the Non-Exclusive Functions and Duties of the 
  Director, U.S. Census Bureau...................................     5
    Prepared statement...........................................     6
Keel, Hon. Jefferson, President, National Congress of American 
  Indians........................................................    18
    Prepared statement...........................................    19
Tucker, James T., Pro Bono Voting Rights Counsel, Native American 
  Rights Fund....................................................    25
    Prepared statement...........................................    28

                                Appendix

Baker, Hon. Bill John, Principal Chief, Cherokee Nation, prepared 
  statement......................................................    65

 
   MAKING INDIAN COUNTRY COUNT: NATIVE AMERICANS AND THE 2020 CENSUS

                              ----------                              


                      WEDNESDAY, FEBRUARY 14, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:59 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. I also have to say, in regard to the business 
meeting, that I ask unanimous consent that staff be allowed to 
make technical and conforming changes, which we can do as long 
as the Vice Chairman agrees that we allow them to do it.
    Senator Udall. No objection.
    The Chairman. All right. Thank you, Vice Chairman Udall.
    We will proceed now with our hearing, and I want to thank 
all of the witnesses for being with us today.
    Good afternoon. I call this oversight hearing to order. 
Today the Committee will hold an oversight hearing on the 
upcoming 2020 Census.
    Our Constitution requires that our Nation's population be 
accurately counted every 10 years. However, in Indian Country, 
getting an accurate population count can be a difficult task. 
Many tribal communities are located in geographically isolated 
areas. Among other challenges, simply accessing these 
communities can inhibit an accurate census count.
    Although it may be difficult to collect census data, it is 
critical for our Nation. Census results are used to draw 
district lines for the U.S. House of Representatives, State 
legislatures, and local governments. They determine the 
distribution of $600 billion in annual Federal assistance to 
States, localities, and to Tribes. They also direct community 
decisions affecting schools, housing, transportation, and 
healthcare services. All of these functions are dependent on an 
accurate census.
    To ensure an accurate count in Indian Country, the Census 
Bureau must continue to engage in meaningful outreach with 
tribal communities to find innovative solutions. In 2015 and 
2016, the Census Bureau held a series of consultation sessions 
with tribal communities. The Bureau issued a final report on 
these consultation sessions, which includes recommendations on 
how to accurately count American Indians and Alaska Natives.
    In my home State of North Dakota, there are roughly 32,000 
Native Americans and, because of the strong presence of Native 
Americans in my State, one of the Bureau's consultation 
sessions was conducted in Fort Yates, North Dakota. I look 
forward to hearing about the Bureau's progress in addressing 
recommendations from Tribes in North Dakota and across the 
Country, as well as how the Administration, Tribes, and other 
stakeholders can work together to conduct an accurate count of 
the Native American community in the upcoming 2020 Census.
    With that, I want to welcome our witnesses. Thank you for 
being here, and I look forward to your testimony.
    Before we hear from the witnesses, I want to turn to Vice 
Chairman Udall for his opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for holding this 
important oversight hearing on the census. With 2020 around the 
corner and preparations already underway, it is very timely to 
be doing so.
    And thank you to the witnesses today for coming out to shed 
light on a topic that will impact Indian Country for years to 
come.
    Administering the census is a task so fundamental to how 
our government operates that our Nation's founders included it 
in the Constitution. With far-reaching consequences, our 
founders' decision was for a good reason. Valid and accurate 
census data is the bedrock of fair, proportionate 
representation in our democracy. The census's detailed 
demographic data is used to implement the Voting Rights Act. An 
inaccurate census risks underrepresentation for tribal 
communities, and an undercount can lead to skewed State, local, 
and Federal voting districts that diminish the voices of those 
communities.
    The census has a big impact on Indian Country when it comes 
to voting, one or our most essential civil rights. Basic 
obligations like language assistance at the polls and voter 
registration in tribal communities' own language can be 
influenced by an undercount, and Federal agencies rely on the 
census and American community survey data when enforcing civil 
rights laws.
    The results of the census have a ripple effect beyond just 
the government. Businesses look at these population estimates 
when looking to expand, and they influence how communities, 
including Tribes, plan for schools and hospitals. That makes it 
all the more important that we get the census right. 
Unfortunately, the Bureau certainly hasn't in the past. In 
1990, the census undercounted the American Indian population on 
reservations by 12 percent; then undercounted that population 
again in 2010 by 5 percent.
    I am concerned that funding shortfalls leading to the 
cancellation of important field tests are only further 
straining the Bureau's ability to carry out this 
constitutionally-mandated duty. This has very real consequences 
for Indian Country; census data determines how the government 
will distribute more than $600 billion this year, and more than 
$6 trillion over the next 10 years, by some estimates.
    Putting those numbers in context, in New Mexico, the 
Federal Government spends about $3,000 per person on everything 
from how the government distributes Medicaid dollars and SNAP 
funds to tribal transportation and housing. That means for 
every person the census misses, thousands of dollars are lost. 
In a budget environment where Indian Country is already 
underfunded, we can't afford to let these dollars leave Indian 
Country.
    I am glad, Mr. Chairman, that we are holding this hearing 
to make sure the Bureau gets the census right this time around.
    With that, I look forward to hearing from our witnesses 
about the outlook for this year, with the eye towards 2020. 
Thank you.
    The Chairman. Thank you, Vice Chairman Udall.
    Now we will hear from our witnesses. They are Mr. Ron S. 
Jarmin, Associate Director for Economic Programs, and 
Performing the Non-Exclusive Functions and Duties of the 
Director of the U.S. Census Bureau here in Washington, D.C.; 
Ms. Carol Gore, President and Chief Executive Officer, Cook 
Inlet Housing, Anchorage, Alaska; the Honorable Jefferson Keel, 
President, National Congress of American Indians; Mr. James T. 
Tucker, Pro Bono Voting Rights Counsel, Native American Rights 
Fund, Las Vegas, Nevada.
    Also, before we proceed with the witnesses, I understand, 
Senator Heitkamp, you would like to make some opening remarks?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman. I want to 
mention the work that is being done in our other committee, 
Homeland Security and Government Affairs.
    So, Mr. Jarmin, it is good to see you. This is an issue 
that is near and dear to my heart because it is so critically 
important that we get these counts right. And as I told 
Secretary Ross in October that there should be a series of 
hearings concerning the Census Bureau and the plan for the 
2020, not just on this unique population.
    Also, HSGAC is waiting to hear back from the secretary 
regarding his response to the Committee's questions for the 
record from our October hearing. October was a long time ago, I 
might remind you. If you could pass that along, it would be 
greatly appreciated.
    Simply put, the 2020 Census I think, quite frankly, never 
mind this issue, is in trouble. Cancelled tests, increasing 
costs projections, and no Senate-confirmed director are all 
signs that the operation is teetering. We can get this back on 
track, but we are running out of time, so there is some urgency 
that I feel about this issue. So I am pleased and grateful that 
the Chairman and the Vice Chairman are taking a closer look at 
the challenges of enumerating folks in Indian Country.
    Indian Reservations provide a unique challenge for the 
Census Bureau, such as historic distrust of the Federal 
Government, so when you knock on the door, they don't always 
answer and they don't always tell you who is there; a lower 
likelihood of deliverable mail, another issue that we are 
trying to solve; and sparse population centers. For too long we 
have given Indian Country the leftovers. Members of these 
communities, our first Americans, deserve to be counted as 
Americans.
    So I want answers to the questions about the status of the 
entire census and where we are and how we are going to get 
there. But this is an issue that we have the ability to do some 
tests. Standing Rock Sioux Nation was one of those test areas. 
That didn't happen because of budget cuts. So, it is critically 
important in our oversight role on this Committee and also on 
Homeland Security and Government Affairs that we get answers 
today, because the longer this goes, the deeper the well will 
be that we will have to climb out of, and the less likely we 
will be able to take corrections.
    So thank you, Mr. Jarmin, for coming, and thanks to all the 
witnesses.
    And, again, my great appreciation for this opportunity to 
speak, but also, Mr. Chairman, for your attention to this very, 
very important issue.
    The Chairman. Thank you, Senator Heitkamp.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Very briefly, Mr. Chairman. I want to 
thank you for this very important hearing. I think we all 
recognize that getting a complete census and accurate count is 
truly important. We recognize that this is an economic tool, 
and, when you undercount, then there are consequences that kind 
of ripple throughout, so making sure that we get it right and 
get it right the first time is important. As Senator Heitkamp 
has noted, there are challenges as we try to get an accurate 
count within Indian Country.
    We have geography challenges in Alaska; access is tough, 
and making sure that we are not able only to gain physical 
access but, again, the mail service that Senator Heitkamp has 
mentioned, we have complex organizational and government 
structure with the Tribes, the tribal organizations, regional 
corporations, the village corporations, the bureaus and cities, 
it makes it perhaps even more complicated. But we have some 
good folks working together. We have Foraker Group, who has 
been working with us to get a good count. We have the Alaska 
Census Working Group, consisting of a lot of good strong 
leaders that are helping us particularly in our very, very 
rural areas.
    But I want to welcome and thank the Committee for inviting 
Carol Gore, who has worked very, very hard on this issue. I 
have known her for a long time. As you mentioned, she is 
President of Cook Inlet Housing. She also serves as the Vice 
Chair of the Census Bureau's National Advisory Committee. We 
have worked with her on a number of issues. She is no stranger 
to the Committee, but I really appreciate her perspective and 
the value that she brings to the Committee, and I welcome her 
back to Washington.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Jarmin.

  STATEMENT OF RON S. JARMIN, ASSOCIATE DIRECTOR FOR ECONOMIC 
PROGRAMS, PERFORMING THE NON-EXCLUSIVE FUNCTIONS AND DUTIES OF 
                THE DIRECTOR, U.S. CENSUS BUREAU

    Mr. Jarmin. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall, and members of the Committee. I welcome the opportunity 
to speak with you today about the Census Bureau's work to 
ensure a high-quality enumeration of American Indian and Alaska 
Native communities in the upcoming 2020 Census. I am excited to 
discuss our ongoing government-to-government relationships with 
our tribal partners and our collaborative efforts to plan a 
census that will count everyone, both on and off tribal lands, 
once, only once, and in the right place.
    To help us prepare for the census, we have received vital 
insights and advice from the American Indian and Alaska Native 
community. We held a series of invaluable consultations with 
tribal leaders across the Nation; we meet monthly with tribal 
representatives; and we have continued our ongoing engagements 
with the Census Bureau's National Advisory Committee on racial, 
ethnic, and other populations.
    The Advisory Committee has included several distinguished 
representatives of the Nation's American Indian and Alaska 
Native communities, including my fellow witnesses and trusted 
Census Bureau partners. We continue to implement and expand 
these critical partnerships.
    Since 2015, we have traveled throughout the Country to meet 
with delegates representing over 250 Tribes and tribal 
corporations and organizations. I want to recognize a couple of 
the folks that have been key to that. I have Dee Alexander and 
Jamie Christy behind me, who, along with dozens of other staff 
from our headquarters and field organizations, have been 
tireless in their efforts to improve the count on Indian land.
    In these consultations, we have heard a common concern that 
the Internet response is not a viable option in remote areas. 
To address this issue, we have used information from the 
American Community Survey and from the Federal Communications 
Commission to identify areas with low connectivity. We plan to 
mail or hand-deliver questionnaires to households in these 
areas, as well as provide the opportunity to respond via the 
telephone.
    Tribal representatives have also expressed a strong 
interest in effective communications with Census Bureau field 
staff. We are committed to ensuring that the Census Bureau 
provides clear guidance and training, recognizing the unique 
preferences and challenges amongst these diverse tribal 
communities. Importantly, we will work together to recruit and 
hire members of American Indian and Alaska Native communities 
to manage and conduct field operations to encourage response.
    The National Congress of American Indians voiced serious 
concerns regarding a proposal to include a tribal enrollment 
question on the 2020 Census due to concerns about privacy and 
tribal sovereignty. With their feedback, the Census Bureau has 
decided not to proceed with the tribal enrollment question. To 
date, more than 50 Tribes and related associations have already 
appointed a 2020 Census tribal liaison to work with our 
regional partnership staff, and we look forward to working with 
them to develop effective census promotional and outreach 
materials.
    The Census Bureau is planning a robust, integrated 
partnership in communications campaign. An important component 
of this will be customized marketing and communications 
strategies and materials for use by our tribal partners. 
Assisting us in this task will be G&G Advertising, a nationally 
recognized leader in tailored outreach to American Indian and 
Alaska Native audiences, and a veteran of two previous 
decennial census advertising campaigns.
    We continue to work with tribal governments to confirm and 
update legal geographic boundaries and address lists, and we 
receive updated information from them every year as part of the 
Boundary and Annexation Survey. While nearly half of tribal 
governments participated in 2017, we hope to improve 
participation in 2018 by increasing our follow-up with those 
who haven't yet responded.
    So far, more than 130 tribal governments have registered to 
review and update the Census Bureau's address lists and maps as 
part of the Local Update of Census Addresses Program, or LUCA, 
and we are on track to kick off the enumeration in Alaska on 
January 20th of 2020. We begin enumeration earlier in these 
remote areas to facilitate access to the approximately 240 
remote villages and communities before the spring breakup.
    The 2020 Census is a complex organization of people and 
systems that need to work together to ensure that we are able 
to count every person living in the Country. The Census Bureau 
relies on its invaluable partnership with the American Indian 
and Alaska Native communities to help guide us in our task.
    I look forward to continued partnership with you and our 
tribal partners as we approach 2020. Thank you for the 
opportunity to be here today, and I look forward to your 
questions.
    [The prepared statement of Mr. Jarmin follows:]

 Prepared Statement of Ron S. Jarmin, Associate Director for Economic 
  Programs, Performing the Non-Exclusive Functions and Duties of the 
                      Director, U.S. Census Bureau
    Good morning Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee. I welcome the opportunity to talk with you today about 
the Census Bureau's work to ensure a high quality enumeration of the 
American Indian and Alaska Native communities in the 2020 Census. I am 
excited to have the opportunity to discuss our ongoing government-to-
government relationships with American Indian and Alaska Native tribes. 
We have worked together to plan a 2020 Census that will count everyone 
on tribal lands once, only once, and in the right place.
    While the Census Bureau is planning the most automated, and modern, 
decennial census in history, we have not disregarded, and in fact 
recognize more than ever, the unique challenges associated with 
conducting the decennial census in American Indian and Alaska Native 
areas. We share the concerns that tribal delegates have raised about 
the undercount of American Indians and Alaska Natives in previous 
counts, and are committed to improving this in the 2020 Census.
    The 2018 End-to-End Census Test, which is our last opportunity to 
validate our design and readiness for the 2020 Census, is now underway 
and field operations will continue through the summer. Following the 
test, we will finalize plans for all operations and make any necessary 
adjustments to ensure readiness for the 2020 Census enumeration, which 
will kick off in remote Alaskan villages on January 20, 2020.
Tribal Engagement
    To help us prepare for the 2020 Census, we have continued to build 
and implement our tribal partnership and we have received vital 
insights and advice from our tribal partners. We held a series of 
invaluable consultations with tribal leaders from across the nation, we 
meet monthly with tribal representatives, and we have continued our 
ongoing engagements with the Census Bureau's National Advisory 
Committee on Racial, Ethnic and Other Populations (NAC). The NAC has 
included several distinguished representatives of the Nation's tribal 
communities, including my fellow witnesses and trusted Census Bureau 
partners.
    For the 2020 Census, we began consultations with tribal 
representatives in 2015, two years earlier in the census lifecycle than 
in prior censuses. The Census Bureau held 17 tribal consultations and 
one national webinar with federally- and state-recognized tribes and 
Alaska regional and village corporations. We met with over 400 tribal 
delegates representing over 250 different tribes, corporations, and 
organizations.
What We Have Heard. . .
    On Enumeration--The Census Bureau informed the tribes that the 2020 
Census would have four response options: Internet, telephone, paper, 
and enumerator. Some tribes reported that Internet response is 
currently not a viable option for many tribal citizens and requested an 
in-person enumerator. The Census Bureau is aware Internet access is an 
issue in rural areas and therefore plans to include a paper 
questionnaire in the first 2020 Census mailing to households in these 
areas. As well, the Census Bureau will provide all households--
regardless how remote or urban--the option of respond via telephone.
    On Partnerships--Tribal delegates shared with us their interest in 
effective communication between their tribal representatives and the 
staff working on the 2020 Census in the field. Their focus was on 
ensuring the Census Bureau provides clear guidance and training to the 
Census Bureau field offices such as recognizing the unique preferences 
and challenges among the diverse tribal communities to ensure the most 
effective engagement with each tribe.
    On Population Statistics--The Census Bureau discussed with tribes 
how the American Indian and Alaska Native responses from the race 
question were coded, classified, and tabulated under each federally 
recognized, state-recognized or non-recognized tribe names. A tribal 
classification code list was presented to the tribes for review and 
input for any name changes or additions. While this list was presented 
to tribal leadership during the consultations, the Census Bureau will 
continue the government-to-government relationship by formally 
soliciting feedback on the coding and classification of their tribal 
responses. The formal letter, along with the coding list, will be sent 
to tribal leadership in spring of 2018.
    On Tribal Enrollment--A large majority of the tribes were not in 
favor of a tribal enrollment question. Tribes expressed that the self-
response option will not allow us to collect accurate data, given the 
differences and complexity of tribal enrollment across American Indian 
and Alaska Native populations. Tribal enrollment is private 
information, and the inquiry would infringe upon tribal sovereignty. 
Tribes also expressed that the Federal Government does not need to 
collect tribal enrollment data.
    This valuable input is a good example of how our tribal engagements 
are successful. Based on these types of consultations, the Census 
Bureau made the decision not to include a tribal enrollment question on 
the 2020 Census or on the American Community Survey.
Actions Underway for the 2020 Census
    I would like to now share the concrete plans we have underway, and 
how each has been tailored to maximize our ability to count the 
American Indian and Alaska Native communities.
Continuing with our Partnerships
    The Census Bureau has had an American Indian and Alaska Native 
Partnership Program since 2000, and we continue to meet with our 
regional tribal partnership staff each month to share the most current 
information about Census Bureau processes as well as to elicit 
information on best practices from tribal partners. This program has 
been instrumental in spearheading programs such as the Tribal Complete 
Count Committees, which have documented successful census outreach 
efforts on tribal lands. To date, more than 50 tribes and 
representative tribal associations have appointed a 2020 Census Tribal 
Liaison to work with our regional tribal partnership staff to prepare 
for the census. These tribal liaisons will help the Census Bureau in 
many ways--from developing effective census materials, to finding 
efficient ways to recruit and hire tribal citizens to manage and 
conduct field operations, to encouraging tribal response to ensure the 
most accurate counts.
Creating an Effective Communication Plan
    The Census Bureau is planning a robust Integrated Partnership and 
Communications program--a critical component of the effort to reach and 
motivate individuals in all areas of the country. Our National 
Partnership Program will be ramping up beginning in October 2018, and 
we plan to increase the number of partnership specialists who form 
these critical relationships in communities across the country from 
fewer than 800 in the 2010 Census to 1,000 specialists for the 2020 
Census.
    Leveraging highly localized outreach campaigns, we plan to develop 
customized marketing and communications materials that can be 
downloaded and printed for use by our American Indian and Alaska Native 
partners. We will be assisted in this task by g&g Advertising, a 
nationally recognized leader in tailored outreach to American Indians 
and Native Alaskan audiences and a veteran of two previous decennial 
census advertising programs. Together, we will be working with our 
tribal community partners to develop effective outreach materials.
Ensuring Up-to-Date Geographic Information
    The Census Bureau has long engaged tribal governments to ensure the 
accuracy of tribal addresses, streets, and boundaries. This work is 
critical for the accurate collection, tabulation, and dissemination of 
census data.
    In 2014, the Census Bureau and the National American Indian Housing 
Council (NAIHC) signed a Memorandum of Understanding establishing a 
joint statistical project. Then in 2016, the Census Bureau and Bureau 
of Indian Affairs signed a Memorandum of Understanding to improve the 
dissemination of accurate data, in furtherance of the government-to-
government relationship between the United States and Indian tribes. 
This Memorandum of Understanding facilitates the sharing of geographic 
information and databases.
    Each year, the Census Bureau conducts the Boundary and Annexation 
Survey (BAS). The BAS is the only survey to collect legal boundaries 
from federal recognized tribes, local, county and state governments 
ensuring that their legal boundaries are current and accurate. 
Consequently, the official population counts within those boundaries 
are correctly recorded with the Federal Government. Every year, tribal 
governments use the BAS to update their federal reservation and off-
reservation trust land boundaries. In the most recent 2017 BAS, we 
received responses from 47.0 percent of tribal governments, up slightly 
from 44.5 percent and 42.5 percent in 2016 and 2015, respectively. In 
2018, we will be adding staff to conduct non-response follow-up which 
we hope will further increase these response rates.
    Before every census, we offer representatives from tribal, state, 
and local governments the opportunity to participate in the Local 
Update of Census Addresses program. Through this program, governments 
are able to review and comment on the Census Bureau's residential 
address list for their jurisdiction. This program is critical for the 
Census Bureau as we rely on a complete and accurate address list to 
reach all living quarters and associated population for inclusion in 
the census. To date, more than 130 tribal governments have registered 
to review and update the Census Bureau's address list and maps as part 
of the Local Update of Census Addresses in preparation for the 2020 
Census.
Developing Adaptive Modes for Self Response
    For the first time, the 2020 Census will provide residents multiple 
modes for responding to the census in order to maximize self-response. 
So, while one option will be the Internet, individuals also have the 
option to respond by telephone through our Census Questionnaire 
Assistance call centers or through paper questionnaire (which will be 
mailed as a final attempt before sending enumerators into 
neighborhoods). In areas where American Community Survey and Federal 
Communications Commission data show low Internet access, we will be 
including a paper questionnaire in the first Census 2020 mailing. In 
some areas where postal mail might not be an effective option for 
reaching the population, we will be delivering the questionnaire to 
households personally. At the same time, we will collect any address 
information we can to facilitate future options for communication with 
the household.
    After giving the population an opportunity to self-respond, we will 
send enumerators to visit every non-responding household in every 
location throughout the country (with the exception of remote areas of 
Alaska where there will already be a full in-person enumeration, as 
described next). If the enumerator is unsuccessful at making contact 
with a member of the household after numerous visits, they will attempt 
to interview a nearby neighbor who could provide proxy information 
about the household. The intent is to obtain, at a minimum, an accurate 
population count for each non-responding household during this 
operation.
Enumerating Remote Areas of Alaska
    Alaska's vast, sparsely settled areas traditionally are the first 
to be counted starting in January of the census year. Local census 
takers must start enumerating in the approximately 240 remote villages 
and communities while the frozen ground allows limited access. Many 
residents leave after the spring thaw to fish and hunt or for other 
warm-weather jobs, making it difficult to get an accurate count on 
April 1 ``Census Day.''
    Remote Alaska enumeration has unique challenges associated with 
accessibility to communities in Alaska's most isolated areas, where 
population ranges from a few people to several hundred people. 
Communities are widely scattered and rarely linked by roads. For these 
communities, we must rely on unique modes of transportation including 
small planes, snowmobiles, and dogsleds. Because of the logistical 
challenges, we combine operations for address canvassing and 
enumeration into one operation called Update Enumerate. During this 
operation, field staff will update the address lists and maps for the 
villages and communities, and then conduct an in-person interview at 
all living quarters to complete the census questionnaire. This will be 
done at all housing units, group quarters, and transitory locations. We 
will work with our local partners to be sure all living quarters are 
enumerated. Outreach to begin preparing for these operations will begin 
next year in 2019.
Learning through Field Tests
    The 2018 End-to-End Census Test began in August 2017 in Pierce 
County, Washington; Providence County, Rhode Island; and the Bluefield-
Beckley-Oak Hill, West Virginia area with the implementation of an 
address canvassing operation. The in-field portion of the test will 
continue through August 2018 in Providence County, Rhode Island with 
the implementation of ``peak operations'' that include Internet self-
response and non-response follow-up. In the address canvassing portions 
of the test, we had the opportunity to test all of our applications and 
systems and hone the address list development operations in a wide 
range of geographical situations, including mountainous areas and areas 
with low connectivity (Internet and cellular). The lessons we learned 
from this portion of the test will be particularly useful as we start 
to prepare for listing in the more remote and rural portions of the 
country. As the peak operations portion of the 2018 End-to-End Census 
Test begin in the spring, we look forward to understanding how our 
enumeration applications and systems function in areas with low 
connectivity in preparation for the challenges we will surely face when 
conducting the 2020 Census.
Conclusion
    The 2020 Census is a complex organization of people and systems 
that work together to ensure that we are able to count every person 
living in the U.S. The Census Bureau relies on its invaluable 
partnership with the American Indian and Alaska Native communities to 
help guide us in our task. Through this partnership, we have received 
valuable advice we believe has made the 2020 Census stronger than ever 
before in its ability to connect with and represent the American Indian 
and Alaska Native communities.

    The Chairman. Thank you, Mr. Jarmin.
    Ms. Gore.

  STATEMENT OF CAROL GORE, PRESIDENT/CEO, COOK INLET HOUSING 
                           AUTHORITY

    Ms. Gore. Thank you. [Phrase in Native language.] Good 
afternoon, Chairman Hoeven, Vice Chairman Udall, Alaska Senator 
Murkowski, and distinguished members of the Senate Committee on 
Indian Affairs. Thank you for the opportunity to appear today.
    My name is Carol Gore. I am a proud Alaskan of Aleut 
descent and I have been with Cook Inlet Housing for more than 
17 years as the President and CEO. Cook Inlet Housing is a 
tribally-designated housing entity for Cook Inlet region in 
Alaska. I have also served as the Vice Chair of the Census 
Bureau's National Advisory Committee since 2014.
    The Census Bureau's work impacts Tribes in many ways. It 
promotes our fair and equal participation in American 
democracy, provides equal data for research and planning 
purposes, enables the enforcement of Federal nondiscrimination 
laws, and draws fair allocations of funding for the Federal 
programs that are vital to Native communities, including 
housing, health care, and education.
    For decades, Native communities have been undercounted. 
This is largely because so many Native people live in what the 
Census Bureau calls hard-to-count communities, which are 
characterized by their cultural and language barriers, high 
levels of poverty, unemployment, housing insecurity, lack of 
telephone and internet access, and remoteness. Collectively, 
the States represented by the members of this Committee are 
home to over 900,000 Native people living in hard-to-count 
communities.
    Accurately counting these Native people requires additional 
resources. Unfortunately, appropriators have restricted the 
Census Bureau's funding in recent years, directing that the 
2020 Census should cost no more than the 2010 Census did. This 
mandate ignores declining purchasing power due to inflation, 
the need to count 30 million more Americans, and the increasing 
complexity of ensuring data security and confidentiality.
    Funding shortfalls have already harmed Indian Country. The 
Bureau planned to test immigration procedures on the Standing 
Rock and Colville Reservations in 2017. Those tests were 
cancelled due to a lack of funding. Without testing, the Bureau 
will be forced to use unproven methods in Indian Country in 
2020.
    Insufficient funding has also damaged the Bureau's ability 
to engage with Tribes through its partnership program which 
conducts targeted outreach to Native and non-Native communities 
throughout the U.S. In 2010, the Bureau employed 3,800 
partnership staff during peak operations. Shockingly, the 
Bureau has so far been able to hire just 43 partnership 
specialists.
    Back home in Alaska, a single partnership specialist 
conducts all the Bureau's outreach to the 229 Tribes in our 
State. She is also responsible for the Bureau's outreach to 
every municipality, city, bureau, and other unit of local 
government across our State. As if that charge were not absurd 
enough, our partnership specialist does not just cover Alaska; 
she is also responsible for a four-State region. This is 
clearly an impossible task.
    To ensure that the 2020 Census does not undercount Native 
persons, appropriators must fund the Census Bureau at a 
reasonable level. By investing in the Bureau's testing efforts, 
partnership program, and communications campaign, Congress can 
ensure a more accurate count in Indian Country and save 
taxpayers money by reducing the need for expensive non-response 
follow-up.
    Census Bureau leadership will also influence the success or 
failure of the 2020 Census in accurately counting Native 
people. The immediate past director was willing to listen to 
tribal perspectives and carefully reflected upon the 
information we provided before making decisions that affected 
our people. Currently, the position of the census director is 
vacant. The person chosen to lead the Census Bureau will 
greatly influence the future of Indian Country, and I ask for 
your help to ensure that the role is filled by a principled, 
bipartisan individual with relevant professional expertise and 
a strong desire to work with Indian Country.
    While the focus of the hearing is the 2020 Decennial 
Census, I am compelled to also stress the importance of the 
Census Bureau's Annual American Community Survey. The ACS is 
the best available resource of uniform data in Indian Country 
across the Nation. It remains critical to Indian Country that 
Congress adequately fund the ACS and that ACS response remain 
mandatory.
    Finally, I would like to recognize the talented, dedicated 
employees of the Census Bureau for their authentic engagement 
on tribal issues. I have had the pleasure to work with many of 
them, and I am here today to tell you that the incredible 
people at the Census Bureau are not the reason I fear that 
Native people will be undercounted in 2020. I fear we will be 
undercounted because there are too few of them and because they 
are not being given the resources they need to do their jobs 
properly. I ask you today to help change that.
    Thank you for the opportunity, and I look forward to your 
questions.
    [The prepared statement of Ms. Gore follows:]

  Prepared Statement of Carol Gore, President/CEO, Cook Inlet Housing 
                               Authority
    Good afternoon Chairman Hoeven, Vice-Chairman Udall, Senator 
Murkowski, and distinguished members of the Senate Committee on Indian 
Affairs. Thank you for the opportunity to appear today as the Committee 
discusses counting all of Indian Country in the 2020 Decennial Census.
    My name is Carol Gore. I am a proud Alaskan of Aleut descent. For 
more than seventeen years, I have served as the President and CEO of 
Cook Inlet Housing Authority, the Tribally Designated Housing Entity 
for Alaska's Cook Inlet Region. Since 2014, I have also served as the 
Vice-Chair of the National Advisory Committee of the U.S. Census 
Bureau.
    As an Alaska Native, a member of the National Advisory Committee, 
and the President of a Native organization that relies heavily upon 
Census data, I understand firsthand the importance of an accurate 
Census count in 2020, especially when it comes to counting Native 
populations. My statement today is intended to help explain how Census 
data impacts Indian Country, why it is so difficult to accurately count 
Native populations, and how Congress and the U.S. Census Bureau can 
ensure an accurate count of all Native people in 2020 and beyond.
Census Data Matter to Indian Country
    The work done by the Census Bureau impacts tribes in a variety of 
ways. It promotes their fair representation in our democracy, provides 
data that are used for research and planning purposes, enables 
government agencies to enforce federal nondiscrimination laws, and 
drives fair and equitable allocations of federal funding.
The Democratic Process
    Census data determine state and local legislative boundaries and 
the apportionment of seats in the U.S. House of Representatives. The 
ability of Native people to participate equally in our democracy 
depends upon the fairness of redistricting processes at the federal, 
state, and local levels. Those processes, in turn, rest on the accuracy 
of Census Bureau data. When Native peoples are undercounted, they are 
denied a full voice in policy decisionmaking and the needs of tribal 
communities may not be prioritized according to their true proportion 
of the population.
Research and Planning
    Census data are vital for tribal planning purposes. Tribes and 
tribal organizations rely on accurate Census data to make informed 
decisions for the futures of their people, including identifying 
housing and healthcare needs and determining the most appropriate 
strategies to deploy scarce resources to meet those needs. Tribal 
businesses utilize Census data to make decisions about their workforce 
and to measure the risk of capital investments.
Enforcement of Federal Non-Discrimination Laws
    For historically marginalized populations like Alaska Natives and 
American Indians, Census data also serve the function of ensuring that 
federal civil rights and voting rights laws are properly enforced. 
Census data are also used to ensure that financial institutions comply 
with federally-imposed obligations to serve minority populations, 
including Native Americans.
Equitable Allocation of Federal Funding
    Census data play a central role in the determining how federal 
resources are allocated to tribes and tribal organizations. Following 
are some of the numerous programs that impact Native communities and 
are funded, in whole or in part, based upon Census data:

  <bullet> Title I Grants to Local Education Agencies--Provides 
        financial assistance to local educational agencies and schools 
        with high numbers or percentages of low-income children. About 
        90 percent of Native students attend Title I public schools. 
        \1\

    \1\ ``Table: Children in Title I Schools by Race and Ethnicity.'' 
Kids Count Data Center, Retrieved 13 December 2017.
---------------------------------------------------------------------------
  <bullet> Head Start Program--Provides grants to local agencies to 
        provide child development services to economically 
        disadvantaged children and families, with a special focus on 
        helping preschoolers develop early reading and math skills. 
        Approximately 10 percent of Native children and pregnant women 
        participated in Head Start or Early Head Start during the 2015-
        16 school year. \2\

    \2\ ``Factsheet: Will You Count? American Indians and Alaska 
Natives in the 2020 Census.'' Georgetown Law Center on Poverty and 
Inequality and the Leadership Conference Education Fund, Updated 
January 15, 2018 (Citing Data from ``Head Start Program Facts Fiscal 
Year 2016,'' Early Childhood Learning & Knowledge Center, June 2017).
---------------------------------------------------------------------------
  <bullet> Native American Employment and Training--Provides Native 
        peoples with employment training and skills, as well as support 
        for daycare and transportation services to enable Native 
        peoples to thrive in the workplace. There were 313 grant 
        recipients in Native communities in 2013.

  <bullet> Indian Health Service--Provides access to comprehensive and 
        culturally acceptable healthcare to Native people, a critical 
        program to fulfill the federal treaty and trust obligations to 
        tribal people. IHS serves 2.2 million Native people nationwide 
        \3\ and uses Census data for planning and program 
        implementation. \4\

    \3\ ``IHS 2016 Profile.'' Indian Health Service, April 2017.
    \4\ ``Trends in Indian Health: 2014 Edition.'' Indian Health 
Service, March 2015.
---------------------------------------------------------------------------
  <bullet> Medicaid--In 2015, 42.8 percent of American Indians and 
        Alaska Natives were enrolled in Medicaid or some other public 
        insurance program. \5\ Medicaid also provides critical 
        supplemental revenue for the chronically under-funded IHS. \6\

    \5\ ``Policy Basics: Introduction to Medicaid.'' Center on Budget 
and Policy Priorities, 16 August 2016.
    \6\ ``Indian Health and Medicaid.'' Medicaid, Retrieved 13 December 
2017; ``Health Care: Implementing Our Values in the Federal Health Care 
Budget.'' National Congress of American Indians, Retrieved 13 December 
2017.
---------------------------------------------------------------------------
  <bullet> Urban Indian Health Program--Reaches Native people who are 
        not able to access the hospitals, health care centers, or 
        contract health services managed by the IHS and tribal health 
        programs. Approximately 25 percent of Native peoples live in 
        urban areas located in counties served by these programs. \7\
---------------------------------------------------------------------------
    \7\ ``Urban Health Program Fact Sheet.'' Indian Health Service, 
U.S. Department of Health and Human Services, October 2015.

  <bullet> Supplemental Nutrition Assistance Program--The most 
        important tool to prevent hunger and malnutrition among 
        families in the U.S. More than one-fourth of Native households 
        nationally and 31.8 percent on reservations received SNAP 
        benefits in 2015. \8\
---------------------------------------------------------------------------
    \8\ ``Table B22005C: Selected Population Profile in the United 
States: 2015 American Community Survey 1-Year Estimates.'' U.S. Census 
Bureau, 2015; ``Receipt of Food Stamps/SNAP in the Past 12 Months by 
Race of Householder (American Indian/Alaska Native Alone)''. U.S. 
Census Bureau, Retrieved 13 December 2017.

  <bullet> Special Programs for the Aging (Title VI, Part A)--Provides 
        grants to Tribal organizations that deliver home and community-
---------------------------------------------------------------------------
        based services to Native elders.

  <bullet> Indian Housing Block Grant--Funded the construction or 
        rehabilitation of more than 5,000 homes in 2015. \9\ The Census 
        data used to determine IHBG allocations are also used to 
        allocate funding for the Tribal Transportation Programs 
        administered by the Bureau of Indian Affairs.
---------------------------------------------------------------------------
    \9\ ``PIH Native American Housing Block Grants.'' U.S. Department 
of Housing and Urban Development, Retrieved 13 December 2017. Available 
at https://archives.hud.gov/news/2015/pr15-013-14-FY16CJ-
NAHBGRANTS.pdf.

  <bullet> Indian Community Development Block Grants--Assists low-to-
        moderate income tribal communities to improve housing 
        conditions, develop community resources, and promote economic 
---------------------------------------------------------------------------
        development.

    Census data are central to ensuring that tribes receive fair 
allocations of funding for vital federal programs. In fact, when 
American Indian and Alaska Native (AIAN) populations are undercounted, 
states with higher AIAN populations, the very States represented by the 
members of this Committee, receive less than their fair share of 
federal resources.
The Difficulty of Accurately Counting Native Populations
    Counting the AIAN population accurately, in Alaska and throughout 
Indian Country, is no simple task. Native communities have been 
undercounted for decades. \10\ The Census Bureau's coverage measurement 
evaluation for the 2010 Decennial Census show that an estimated 4.9 
percent of the AI/AN on-reservation AIAN population was undercounted. 
\11\ The undercount of the AIAN population was potentially higher in 
parts of my home state, Alaska, where the Census Bureau estimated an 8 
percent undercount of what it calls ``special-enumeration tracts''--the 
very places with the highest percentage of Alaska Native people.
---------------------------------------------------------------------------
    \10\ Brownrigg, Leslie and Manuel de la Puente. ``Sociocultural 
Behaviors Correlated with Census Undercount.'' Paper prepared for 
presentation in Special Session 2 15 to the American Sociological 
Association, 22 August 2003.
    \11\ US Census Bureau, American Community Survey, 5-year Estimates 
for 2012-2016.

        2010 Census undercounted American Indian/Alaska Natives by 4.9 
---------------------------------------------------------------------------
        percent

        American Indian and Alaska Natives---4.9 percent
        Black---2.1
        Hispanic---1.5
        Native Hawaiian and Other Pacific Islander---1.3
        Asian---0.1
        Non-Hispanic white--0.8

    The historical undercount of AIAN persons has occurred largely 
because so many Alaska Native and American Indian people live in what 
the Census Bureau calls ``hard-to-count'' geographies. Hard-to-count 
geographies are characterized by high levels of poverty and 
unemployment, housing insecurity and homelessness, households lacking 
telephone and Internet access, households with young children, and 
lower than average rates of educational attainment. These tracts 
require special outreach, additional resources, and specific 
enumeration methods to ensure an accurate count.
    The states represented by members of this committee are home to 
over 900,000 American Indians and Alaska Natives living in hard-to-
count Census tracts. Nationally, more than 30 percent of the AIAN 
population lives in hard-to-count areas. \12\ In Alaska, this number 
jumps to over 65 percent, and in New Mexico, nearly four out of five of 
American Indians live in hard-to-count communities. \13\
---------------------------------------------------------------------------
    \12\ ``TABLE 1b: States Ranked by Percent of American Indian/Alaska 
Natives (race alone or in combination) living in Hard-to-Count (HTC) 
Census Tracts.'' The Leadership Conference Education Fund, Retrieved 9 
February 2018. Available at http://civilrightsdocs.info/pdf/census/
2020/Table1b-States-Percent-AIAN-HTC.pdf.
    \13\ ``TABLE 1b: States Ranked by Percent of American Indian/Alaska 
Natives (race alone or in combination) living in Hard-to-Count (HTC) 
Census Tracts.'' The Leadership Conference Education Fund, Retrieved 9 
February 2018. Available at http://civilrightsdocs.info/pdf/census/
2020/Table1b-States-Percent-AIAN-HTC.pdf.
---------------------------------------------------------------------------
    What makes the AIAN population so difficult to count? Geography 
plays a significant role. American Indians and Alaska Natives 
disproportionately live in rural environments that are harder for the 
Census Bureau to reach. This is true in my home state of Alaska, where 
homes in many Alaska Native Villages do not have traditional mailing 
addresses and where door-to-door counting requires Census enumerators 
to take small ``bush'' planes to and from extremely remote areas of the 
state.
    The manner in which homelessness manifests in Native communities 
also contributes to the difficulty of obtaining an accurate count. In 
2017, the Department of Housing and Urban Development released its 
Assessment of American Indian, Alaska Native, and Native Hawaiian 
Housing Needs. HUD recognized that incidents of literal homelessness 
are rare in many Native communities because of a cultural inclination 
to take in friends and family members who have no other housing 
options, even when the result is extreme overcrowding. HUD found that 
there are up to 85,000 homeless Native Americans living in tribal 
areas. These individuals lack a permanent, traditional mailing address 
and are at significant risk of going uncounted in the Decennial Census.
    In 2020, the Census Bureau will, for the first time, offer people 
the option to complete the Decennial Census online. States from New 
Mexico to Montana to North Dakota are home to remote Census tracts 
where less than 60 percent of households met the FCC's minimum 
threshold of Internet connectivity in 2016. Like disproportionate rates 
of homelessness, limited Internet connectivity could threaten the 
Census Bureau's ability to accurately count Indian Country in 2020, 
particularly if the Bureau lacks the resources necessary to test the 
efficacy of Internet response in communities with sizeable AIAN 
populations. While we believe it is critical for the Bureau to 
carefully plan and test the use of Internet response in Indian Country, 
we must note, regrettably, that delayed and insufficient funding for 
the Census Bureau in Fiscal Years 2017 and 2018 forced the Census 
Bureau to cancel all planned tests of census operations in Indian 
Country and rural areas--a concern discussed later in my testimony.
    Cultural differences also present a challenge for the Bureau when 
it counts AIAN populations. Native communities have unique customs, and 
in many, English is not the primary language spoken. Without proper 
education and training, enumerators may have difficulty communicating 
effectively with people living in some Native communities. We must also 
acknowledge that many American Indian and Alaska Native households 
remain deeply distrustful of the federal government due to historical 
trauma, which can impact their willingness to cooperate with the 
Bureau's enumeration efforts.
    The 2020 Decennial Census will be unlike any Census ever conducted 
in the United States. It will rely largely on households responding 
online, rather than by submitting a paper questionnaire. It will 
require a large and complex system of computer hardware and software, 
which has encountered serious problems during development. Outreach and 
communications efforts, which are of critical importance to Indian 
Country, are likely to be scaled back due to funding shortfalls. In my 
home state of Alaska, where 92,000 Native people live in hard-to-count 
communities, we are extremely concerned about the potential for a 
significant undercount of the AIAN population during the next Decennial 
Census. However, it is not too late for Congress to influence a better 
and more equitable outcome for Indian Country in 2020.
Promoting an Accurate Count of American Indian and Alaska Native 
        People
    What can Congress and the Census Bureau do to ensure an accurate 
count of Indian Country in 2020? While there are certain revenue-
neutral measures that Congress and the Administration can take, 
including appointing qualified, professional, and nonpartisan 
leadership to oversee Census Bureau operations, the reality is that 
conducting a fair and accurate Census will require additional 
resources.
Census Bureau Funding
    Appropriators have significantly restricted the Census Bureau's 
funding in recent years, directing that the 2020 Census should cost no 
more than the 2010 Census did. \14\ This mandate was issued despite the 
decline in purchasing power due to inflation, the need to count 
approximately 30 million more Americans, and the increasing complexity 
of ensuring the security and confidentiality of the data collected.
---------------------------------------------------------------------------
    \14\ U.S. Senate, Committee on Appropriations, ``Report on 
Departments of Commerce and Justice, and Science, and Related Agencies 
Appropriations Bill, 2015,'' June 5, 2014, Page 20.
---------------------------------------------------------------------------
    The significance of recent Census Bureau funding shortfalls is 
illustrated in the graph below, which compares the funding trend for 
the upcoming 2020 Decennial Census to the funding trends for the three 
previous decennial censuses. As the graph shows, Census Bureau funding 
usually ramps up in the few years preceding the decennial census, but 
this has not been the case so far for the 2020 Decennial. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Census Bureau funding shortfalls have already significantly 
impacted Indian Country. Prior to each of the last several decennials, 
the Bureau tested its enumeration procedures in reservation areas. 
Tests were planned for April 2017 on the Standing Rock reservation in 
North and South Dakota and the Colville reservation in north-central 
Washington. These tests were intended to refine the Bureau's methods 
for enumerating areas with unique location characteristics, where it 
could not mail a Census form to a street address. The tests were also 
intended to evaluate the integration of Census Bureau systems for the 
specific type of enumeration most frequently used in remote and rural 
tribal communities. \15\
---------------------------------------------------------------------------
    \15\ U.S. Census Bureau, ``2017 Census Test; Preparing for the 2020 
Census, Colville Indian Reservation and Off-Reservation Trust Land, 
WA,'' undated.
---------------------------------------------------------------------------
    The Census Bureau abruptly cancelled the tests on the Standing Rock 
and Coleville Reservations in October of 2016. The Bureau memo 
describing the cancellation stated:

         ``The proposed funding levels in both the House and Senate 
        from the spring of 2016 require us to prioritize other 
        activities in 2017 rather than expend the resources necessary 
        to conduct two planned 2020 Census field tests in 2017. Given 
        the current uncertainty about 2017 funding, the Census Bureau 
        will not continue expending resources to prepare for the FY 
        2017 field tests, only to receive insufficient resources to 
        conduct them.'' \16\
---------------------------------------------------------------------------
    \16\ U.S. Census Bureau, 2020 Census Program Memorandum Series, 
``Adjustment of FY 2017 Test Scope,'' by Lisa M. Blumerman dated 
October 18, 2016.

    Underfunding of Census Bureau operations indisputably caused the 
cancellation of testing on the Standing Rock and Coleville 
Reservations. An insufficient budget request for the Census Bureau in 
FY 2018 also caused the cancellation of two of three planned ``dress 
rehearsal'' sites in 2018. The Census Bureau originally planned to 
conduct the 2018 End-to-End Census Test for Providence County, Rhode 
Island; Pierce County, Washington; and the Bluefield-Beckley-Oak Hill 
area of West Virginia. Testing was cancelled for all sites except 
Providence County, leaving the Bureau without any experience as to how 
the Census process may work in 2020 in rural areas, on reservations, 
and in many other tribal communities. Without testing, the Bureau will 
be forced to use unproven methods and operations in Indian Country in 
2020. That's like flying a prototype airliner for the first time with a 
full complement of 300 passengers on board. It is imperative that 
Congress fund additional focused testing in 2018 or 2019 to compensate 
for the canceled tests on reservations and in rural areas.
    Insufficient funding has also damaged the Bureau's ability to 
engage with tribes and tribal organizations through its Partnership 
Program. Obtaining an accurate count in Native communities requires 
significant outreach efforts that individually target each tribal 
community, engaging persons and organizations the local community 
trusts and vigorously promoting participation in the Decennial Census. 
The Census Bureau undertakes this crucial work through its Partnership 
Program.
    In 2010, the Census Bureau employed approximately 3,800 partnership 
staff during peak operations. By comparison, the Bureau plans to hire 
just 800 Partnership Specialists for the 2020 Census, according to 
congressional testimony provided by Commerce Secretary Ross last 
October. Even more concerning is the fact that the Bureau has hired 
only 43 Partnership Specialists to date. Back home in Alaska, a single 
Partnership Specialist conducts the Bureau's outreach to all 229 
federally recognized tribes in our state. Our Partnership Specialist 
must also handle all of the Bureau's outreach efforts with each and 
every municipality, city, borough, and other unit of local government 
across Alaska. As if that charge were not unreasonable enough, our 
Partnership Specialist does not just cover Alaska; she is expected to 
serve a four-state region. It is an impossible task.
    Forty-three Partnership Specialists nationwide would be an entirely 
insufficient number to engage trusted community members and mobilize 
local education and outreach efforts in Indian Country alone. Expecting 
those few dozen people to complete that work for every single community 
throughout United States of America is patently absurd. We call upon 
Congress to provide sufficient funding for the Bureau to immediately 
hire another 157 Partnership Specialists, bringing the total number of 
Partnership Specialists to 200 in 2018, just 5.3 percent of the number 
hired for the 2010 Decennial Census. Further, we urge Congress to 
provide funding for roughly 2,000 Partnership Specialists and 
assistants during peak preparations and operations in 2019 and 2020. 
Given the growing challenges to a fair and accurate 2020 Census, a 
greater outreach effort will help overcome fear and distrust of the 
federal government in Native communities and help keep overall census 
costs in check.
    Like its Partnership Program, the Bureau's communications campaign 
is a vital investment to ensure a cost-effective and accurate census. 
The Commerce Department recently concluded that public cooperation in 
2020 will be lower than originally projected, which will increase costs 
substantially. A robust advertising and outreach campaign could help 
ease public concerns about cyber-security, confidentiality, and the 
safety of responding to the Census. It is also critical to determine 
the targeted messaging that will be most effective in specific hard-to-
count communities, like those throughout Indian Country. Unfortunately, 
campaign planning, messaging research, and testing is already many 
months behind schedule because of insufficient funding. Congress should 
provide increased funding in FY 2018-2020 to put the Bureau's 
communications campaign back on track.
    Underfunding the Bureau's Partnership Program and communications 
campaign is penny wise and pound foolish. The Census Bureau has 
estimated that its costs increased by approximately $85 million for 
each one percent of households that did not mail back their census form 
in 2010. A reasonably staffed Partnership Program and an effective 
communications campaign can significantly reduce the rate of non-
responding households, making them sound investments in an accurate and 
cost-efficient census.
    To ensure that the 2020 Decennial Census does not exacerbate the 
undercount of American Indian and Alaska Native persons that occurred 
in 2010, appropriators should fund the Census Bureau's Periodic 
Censuses and Programs budget at $1.578 billion for 2018, for a total 
Census Budget of $1.848 billion. This figure includes the 
administration's adjusted budget request (+$187 million more than its 
original budget proposal), plus $164 million more to expand the 
partnership and communications programs and to begin to increase the 
number of local census offices.
Census Bureau Leadership
    Leadership of the Census Bureau, particularly at the Director 
level, will greatly influence the success or failure of the 2020 
Decennial Census in accurately counting American Indian and Alaska 
Native people. The immediate past Director of the Census Bureau 
demonstrated a willingness to listen to tribal perspectives and the 
ability to carefully reflect upon the opinions and information provided 
before making decisions that would affect tribes and AIAN people. He 
listened alertly during numerous day-long consultation sessions with 
tribal leaders and representatives of tribal organizations. He also 
strengthened the role of the Tribal Affairs Coordinator within the 
Bureau's Office of Congressional and Intergovernmental Affairs.
    Currently, the position of Census Bureau Director is vacant. The 
President has not advanced a nominee, who will be subject to Senate 
confirmation. Whoever is chosen to lead the Census Bureau will be in a 
position to greatly influence the future of Indian Country. We ask that 
the Senate help ensure that the role is filled by a principled 
individual with relevant professional expertise, substantial management 
experience, and a willingness to work with the diverse populations 
impacted by Census Bureau data collections.
Tribal Enrollment Question
    The Census Bureau spent considerable time researching and 
evaluating the risks and potential benefits of including a tribal 
enrollment question in the 2020 Decennial Census. After careful study 
and more than a dozen full-day consultation sessions with tribes and 
tribal organizations from across the country, the Bureau determined 
that it would not recommend the inclusion of a question on tribal 
enrollment. I urge the members of this committee to stand by the 
Bureau's well-informed decision.
    It is my understanding that in nearly all of the Bureau's 
consultation sessions, the significant majority of tribal 
representatives expressed disapproval of the possible inclusion of a 
tribal enrollment question. This position was reinforced by the 
National Congress of American Indians, which passed a resolution 
explicitly opposing the inclusion of a tribal enrollment question.
    Tribes oppose the inclusion of a tribal enrollment question for 
several reasons. Some tribes have concerns about the implications to 
tribal sovereignty. Because the Decennial Census is based upon self-
identification, the only way for the Bureau to confirm enrollment would 
involve tribes disclosing their roles for purposes of verification. 
Tribes were also concerned that the question would produce flawed and 
inaccurate data. Because there is no universal definition of ``tribe'' 
across federal tribal programs, it would be impossible for a single 
enrollment question to accurately measure ``tribal members'' for the 
purposes of federal Native American programs. Additionally, in places 
like Alaska, many tribal members identify their tribe based upon their 
racial or ethnic identity. A tribal enrollment question would fail to 
capture this distinction and would lead to inaccurate data. For these 
reasons, a tribal enrollment question does not belong on the Decennial 
Census or any other Census Bureau data collection.
The American Community Survey
    While the focus of this hearing is the 2020 Decennial Census, I am 
compelled to also stress the importance of the Census Bureau's annual 
American Community Survey (ACS). The ACS is the best available source 
of uniform data on Native communities across the country. It is 
utilized in numerous federal funding formulas, including for the Indian 
Housing Block Grant.
    Unlike the Decennial Census, which seeks to count every person in 
the country, the ACS is a survey. It is sent to a sample of households 
within any given community. Although the Census Bureau has instituted 
procedures that increase the sampling rates for American Indian and 
Alaska Native areas, a measure for which it should be applauded, it 
remains critical to Indian Country that Congress adequately funds the 
ACS.
    I also urge Congress to ensure that the ACS remains a mandatory 
data collection. Recent years have seen efforts by some organizations 
and Members of Congress to make ACS response voluntary. Studies suggest 
that making the ACS voluntary would lower the national response rate by 
over 20 percent. To account for this drop in responses the Bureau would 
need to increase the sample size, which would translate to 
significantly more federal dollars spent conducting the ACS without any 
guarantee of improved data reliability or usefulness. In fact, a short-
lived ``experiment'' with a voluntary census form in Canada resulted in 
the loss of data for about 25 percent of the country's communities, 
most notably the rural and sparsely populated areas that are home to 
many of Canada's Native peoples. The Canadian government reversed 
course when the next census took place, restoring the mandatory 
response requirement for its survey on household social and economic 
characteristics.
    While there have been limited discussions about creating a new 
federally-administered tribal survey, the costs of doing so are 
prohibitive. Various estimates suggest that it would cost between $20 
and $140 million to conduct such a survey just once every five years. 
Considering the substantial unmet needs throughout Indian Country, from 
health care to housing, we in Alaska prefer to avoid duplicating data 
collection efforts and instead focus on working with the Census Bureau 
to enhance the accuracy of the ACS.
Conclusion
    I would like to briefly recognize Norm DeWeaver, Terri Ann 
Lowenthal, and the Leadership Conference on Civil and Human Rights for 
their distinguished and ongoing work to educate stakeholders across the 
country about how Census data collections affect Alaska Native and 
American Indian populations. Their engagement has informed my 
participation on the Census Bureau's National Advisory Committee and 
has been deeply appreciated.
    I would also like to recognize the talented and dedicated employees 
of the U.S. Census Bureau for their authentic engagement on tribal 
issues. I have had the pleasure to work with so many of them over the 
past half-decade, including Tim Olson, Associate Director for Field 
Operations, who is deeply passionate about the work the Bureau does. 
There's James Christy, who heads the Los Angeles Regional Office but 
now finds himself helping to fill capacity gaps in Bureau Headquarters 
in Maryland. Jamey has always made time to listen to tribes in Alaska, 
despite the enormity of his role for the Census Bureau. And of course, 
there is Dee Alexander, who has brought new accountability to tribes 
and Native peoples through her role as the Bureau's Tribal Affairs 
Coordinator. We appreciate and value the work they do every single day.
    Please understand that I am here today to tell you that these 
incredible people and their many colleagues at the Census Bureau are 
NOT the reason I fear that American Indian and Alaska Native people 
will be undercounted in 2020. I fear we will be undercounted because 
there are too few of them and because they are not being given the 
resources they need to do their jobs thoroughly. I am asking you today, 
in no uncertain terms, to help change that.
    I appreciate the opportunity to appear before the Senate Committee 
on Indian Affairs, and I hope the information I have provided today has 
reinforced the vital importance of the 2020 Census for Indian Country.

    The Chairman. Thank you, Ms. Gore.
    President Keel.

STATEMENT OF HON. JEFFERSON KEEL, PRESIDENT, NATIONAL CONGRESS 
                      OF AMERICAN INDIANS

    Mr. Keel. Thank you, Senator Hoeven, Vice Chairman Udall, 
and members of the Committee. Before I begin, I want to, first 
of all, state my support and our support and appreciation for 
the reauthorization of the Tribal Law and Order Act and 
improvements to that bill to help secure Indian Country, so 
thank you for that action. We appreciate that.
    On behalf of the National Congress of American Indians, I 
want to thank you for holding this hearing on how to ensure 
Indian Country counts in the upcoming decennial census. In the 
spring of 2020, the Nation will be focused on the decennial 
census; however, plans and funding are required now for an 
accurate enumeration, with no differential undercounts.
    The upcoming census will be unlike any other census 
undertaken before. The failure to fully enumerate the American 
Indian and Alaska Native population could result in devastating 
consequences, including reductions in access to Federal and 
State services and resources.
    The census is a foundational tenet of American democracy, 
mandated in the U.S. Constitution and central to America's 
representative form of government. A fair democracy requires an 
accurate population count. It is necessary to ensure that 
Native voters have an equal voice in the political process of 
non-tribal elections.
    As you know, American Indians and Alaska Native people are 
especially at risk for undercounts. As stated before, the 
Census Bureau estimates that in the most recent census nearly 5 
percent of Native people on reservations were missed. In the 
1990 Census, as noted, the net undercount for American Indians 
on reservations were more than 12 percent.
    Some years have been better, though. The undercount was 
just 1 percent in 2000.
    Careful planning and consultation with Tribes and 
operations in partnerships and adequate resources are critical 
to addressing the barriers to counting Native people.
    A number of factors contribute to Native people being hard 
to count. The Census Bureau identified the factors that are 
associated with undercounts in the census. These include 
poverty, low educational attainment, lacking a telephone, 
unemployment, and linguistic isolation, among others.
    Many of the characteristics that make the Native people at 
risk for being undercounted persist since 2010, such as 
economic hardship and low education. In 2015, 38 percent of 
Native individuals on reservations were living in poverty, 
compared to 13 percent of the U.S. population.
    Young children are also undercounted at high rates, which 
is concerning given that Native people on reservations have a 
median age of 9 years lower than the national average.
    The Census Bureau will again need the resources for 
operations counting Native people in the 2020 Census. The 
credibility of the Census Bureau is critical for public trust 
and the integrity of the 2020 Census and all census statistics. 
This is why non-partisan objective census leadership is 
important. It also makes the partnership program and 
communications campaign critical to a successful 2020 Census.
    Research on barriers and attitudes about the census shows 
that Native people had the lowest intent to respond in 2010. 
They also did not believe responding would lead to any positive 
result in their community. Resources for census partnerships 
and finding trusted messengers to address Tribal cynicism and 
suspicion about the use and purpose of the census is critical 
to a successful 2020 count.
    However, as we move into the middle of fiscal year 2018, 
funding for the Census Bureau is a significant problem. 
Throughout the entire 2020 Census lifecycle, fiscal year 2012 
to 2021, Congress, every year, has not provided the amount of 
money the Census Bureau requested. This means that the 2020 
Census has already been underfunded from the start.
    Unfortunately, uncertainty about funding levels resulted in 
the cancelling of planned field tests on the Standing Rock 
Reservation in North and South Dakota, and the Colville 
Reservation in Washington. This eliminated critical testing of 
methods for the 2020 Census.
    In addition to the funding request and strong census 
leadership, we also oppose the addition of a citizenship 
question to the 2020 form. Changes to the census form this 
close to the 2020 Census would jeopardize the response of hard-
to-count communities.
    We urge the Committee to address the funding and policy 
concerns raised in this testimony, all issues that are critical 
to making sure American Indians and Alaska Natives are 
accurately counted.
    Thank you very much.
    [The prepared statement of Mr. Keel follows:]

Prepared Statement of Hon. Jefferson Keel, President, National Congress 
                          of American Indians
    On behalf of the National Congress of American Indians (NCAI), I 
want to thank you for holding this hearing on how to ensure Indian 
Country counts in the upcoming decennial Census. In the spring of 2020, 
the attention of the nation will be focused on the decennial Census, 
however plans and funding are required now for an accurate enumeration, 
with no differential undercounts. The upcoming Census will be unlike 
any other census undertaken before. The failure to fully enumerate the 
American Indian and Alaska Native (AI/AN) population could result in 
devastating consequences, including reductions in access to federal and 
state services and resources.
Foundational to Democracy
    The Census is a critical and powerful information source that will 
significantly influence American policy for the coming decade. It is a 
foundational tenet of American democracy, mandated in article 1, 
section 2 of the US Constitution and central to our representative form 
of government. A fair democracy requires an accurate population count.
    The U.S. population is enumerated every 10 years and census data 
are used to allocate Congressional seats, electoral votes, and is the 
basis for political redistricting. Under the 14th Amendment's guarantee 
of equal representation, congressional districts must have roughly 
equal numbers of people, so census data are used to draw district 
lines. Public Law 94-171 governs the release of census data for 
redistricting at the federal, state, and local levels, and an accurate 
count is necessary to ensure that American Indian and Alaska Native 
voters have an equal voice in the political process of non-tribal 
elections. Jurisdictions also use census data to comply with the Voting 
Rights Act, such as making sure Native voters have access to language 
assistance when they cast their votes in an election.
Essential to Fair Resource Distribution
    In addition to its use in fair voting representation, census data 
play a key role in the fair distribution of billions of dollars to 
tribes and AI/AN people across the nation. Federal funding for Indian 
schools, Indian education programs, Indian health programs, Indian 
housing programs, water and sewage projects, roads, and economic 
development are distributed on the basis of data collected by the 
Census Bureau.
American Indians/Alaska Natives at Risk for Undercounts
    Certain population groups are at higher risk of being missed in the 
decennial census--groups considered hard-to-count. Native people 
especially on reservations and in Alaska Native villages have been 
historically underrepresented in the census, and in 2020, new 
methodologies for enumerating the U.S. population could put other 
groups at risk. In the 2010 Census, the Census Bureau estimates that 
American Indians and Alaska Natives living on reservations or in Native 
villages were undercounted by approximately 4.9 percent, more than 
double the undercount rate of the next closest population group. \1\
    The net undercount for American Indians living on reservations was 
also very high in 1990, with an estimated 12.2 percent missed. About 
one in three Native people live in hard-to-count census tracts. \2\ The 
Census Bureau identifies twelve characteristics that are associated 
with census undercounts, including linguistic isolation, poverty, low 
educational attainment, lacking a telephone, unemployment, and others. 
\3\ A recent report found that although the rural population is 
generally easier to enumerate than the urban population, certain rural 
areas will be difficult to count in 2020, such as American Indians on 
reservations and Alaska Natives, as well as Hispanics in the Southwest, 
residents of Appalachia, migrant workers, and African Americans in the 
rural South. \4\
    A large proportion of American Indians/Alaska Natives in certain 
states live in hard-to-count (HTC) tracts; for instance, in New Mexico 
78.6 percent of AI/AN people live in HTC tracts, 68.1 percent in 
Arizona, 65.6 percent in Alaska, 52.4 percent in South Dakota, and 49.9 
percent in Montana. \5\
    Households in poverty are very hard to count: in 2015, 38.3 percent 
of Native individuals on reservations were living in poverty compared 
to the national rate of 13 percent. \6\ Young children are also 
undercounted at disproportionately high rates compared to other age 
groups, and Native people on reservations have a median age nine years 
lower than the national average. \7\ The poverty rate is 46.3 percent 
for AI/AN-alone youth ages 0 to 17 in reservation areas. \8\ Many of 
the characteristics that make American Indians and Alaska Native hard 
to count persist, such as economic hardship and education, and thus the 
Census Bureau will again need the resources to enumerate accurately the 
AI/AN population in the 2020 Census.
Barriers, Attitudes, and Motivators
    The Census Bureau plans to conduct the Census Barriers, Attitudes, 
and Motivators Survey (CBAMS) to inform work on the 2020 Census 
Integrated Partnership and Communications Plan. While attitudes and the 
political climate may have changed since the 2010 CBAMS, the results of 
the last study are informative as baseline data to understand the 
critical need for effective education and outreach activities for 2020. 
The 2010 CBAMS results showed that among racial and ethnic groups, AI/
AN people and Asians had the lowest overall intent to respond. Some of 
the other relevant findings from then: \9\

  <bullet> Native people reported less favorability and were less 
        likely to think responding to the Census was important (p. 21).

  <bullet> AI/ANs felt that they were familiar with the Census and its 
        purpose. However, while AI/ANs understood that the Census 
        ``lets government know what my community needs,'' they did not 
        see results in their community (p. 21).

  <bullet> They do not tend to consider it a ``civic responsibility'' 
        to answer the Census, but answering the Census reflects pride 
        in oneself (p. 22).

  <bullet> Many did not feel it was important to participate in the 
        Census nor did they view it favorable.

  <bullet> The previous report suggested ``that messages targeted to 
        American Indians should focus on appealing to a sense of civic 
        duty as well as on specific information about the Census.'' (p. 
        22)

  <bullet> AI/ANs in particular were characterized by a unique belief 
        profile. They were much more likely than other groups to 
        express skepticism about the use and purposes of the Census and 
        the security of Census data, and they were the only group for 
        which agreement that it is important for everyone to be counted 
        was lower than 90 percent (p. 24).

  <bullet> American Indians expressed cynicism about the importance of 
        the Census, and they were particularly characterized by 
        suspicion about the use and purpose of the Census (p. 25).

    The 2010 report recommended that, ``while strong conclusions about 
this group are not warranted, the data suggest that messages focusing 
on civic duty might be effective among American Indians'' (p. 34). The 
analysis suggested that while AI/AN people expressed negative feelings 
about the Census and skepticism, they are relatively knowledgeable 
about its purpose (p. 36). The report recommended focusing on census as 
a civic duty, security of census data, and how the Census has benefited 
AI/AN communities.
    These results are important since many aspects of public life have 
changed since the last Census, with heightened concern around security 
of digital data, federal government agency breaches, as well as the 
perception of increasingly strained race relations.
    These new elements of the social landscape may exacerbate some of 
the barriers to Census participation, especially mistrust of government 
and the perception that participation in the census will lead to 
improvements in one's community. Messages appealing to civic duty for 
AI/AN people may also have to be implemented in new ways. However, AI/
AN trust in government varies based on whether the government is local 
(tribal), state, or federal--trust in tribal government is often much 
higher than trust in the federal government. Finding the trusted 
messengers in Indian Country is critical to an effective public 
education and outreach campaign, especially for AI/AN people.
Impacts of Undercounts in Indian Country
    Undercounting AI/AN people in the 2020 Census could lead to 
inefficient distribution of federal funding to tribes. Each tribe and 
tribal community has unique health, housing, education, and economic 
development needs. Many programs serving tribes are funded based 
entirely or in part on census or census-derived data, including the 
following.

  <bullet> The Indian Housing Block Grant Program (IHBG) is a formula 
        grant that provides a range of affordable housing activities on 
        Indian reservations and Indian areas. The block grant approach 
        to housing for Native Americans was enabled by the Native 
        American Housing Assistance and Self Determination Act of 1996 
        (NAHASDA). The block grant program, which is based almost 
        entirely on census data, served, helped build, or rehabilitated 
        5,014 units in 2015.

  <bullet> Population data used in the IHBG program are also used to 
        allocate money for the Tribal Transportation Programs 
        administered by the Bureau of Indian Affairs. Several child 
        welfare programs administered by the Children's Bureau in the 
        Department of Health and Human Services also use Census data 
        for fund allocation.

  <bullet> The special Native American workforce programs under the 
        Workforce Innovation and Opportunity Act distributed almost $49 
        million for the Comprehensive Services Program and an 
        additional nearly $13 million for the Supplemental Youth 
        Services program in Program Year 2017. The fund allocation 
        system for each of these two programs uses Census data 
        exclusively. The program supports employment and training 
        activities in order to develop more fully the academic, 
        occupational and literacy skills; make individuals more 
        competitive in the workforce; and promote economic and social 
        development in accordance with the goals and values of such 
        communities.

  <bullet> The Indian Health Service provides access to comprehensive 
        and culturally acceptable healthcare to AI/AN people, a 
        critical program that fulfills the federal treaty and trust 
        obligations to tribal people. The IHS provides services to 2.2 
        million Natives nationwide and uses Census data for planning 
        and implementation of programs. \10\ IHS also uses Census data 
        in a number of its funding distribution formulas.

Concerns with the 2020 Census
    Careful planning and adequate funding now and leading up to 2020 
are essential to minimizing undercounts of the American Indian and 
Alaska Native population. As we move into the middle of FY 2018, 
funding for the Census Bureau appears to be a significant problem.
    Peak operations for the 2020 Census will start in two years. Early 
operations are underway for an important ``dress rehearsal'' in 2018 
(the End-to-End Census Test). State, local, and tribal governments are 
preparing to review address lists and digital maps for their 
communities (the Local Update of Census Addresses program, or LUCA), 
which create the universe for the count in 2020. As in every decade, 
the U.S. Census Bureau must have a steady annual funding ramp-up 
between now and 2020 for the constitutionally required enumeration, to 
ensure on-time, comprehensive final testing and preparations.
    The Census Bureau is funded through the Commerce, Justice, and 
Science (CJS) Appropriations bill. Throughout the entire 2020 Census 
lifecycle (FY 2012-FY 2021), Congress every year has not allocated the 
amount of money the Census Bureau requested. This means that the 2020 
Census has been underfunded from the start.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    For context, the Census Bureau generally ramps up for the decennial 
count with a decade-long cycle of spending, starting with research and 
testing in the fiscal year ending in ``2.'' Generally, after modest but 
important increases earlier in the decade, Census budgets begin to rise 
significantly in the fiscal year ending in ``6,'' when the Bureau must 
begin to operationalize the census design and conduct larger field 
tests. After preparation during the year ending in ``8,'' address 
canvassing takes place in the eighth year of the cycle (e.g. 1989 
before the 1990 Census).
    Census outreach and promotion, as well as recruitment of hundreds 
of thousands temporary field staff, begins in the year before the 
census. Peak Census operations start in late January in remote Alaska 
in the year ending in ``0''--Census Year! Census operations wind down 
in the 10th year of the lifecycle (e.g. 2021), with tabulation and 
publication of the census data will carry our nation through the next 
decade.
Impact on American Indians/Alaska Natives
    Unfortunately, uncertainty about FY 2017 funding levels and lack of 
sufficient appropriations resulted in the Census Bureau canceling 
planned field tests on the Standing Rock Reservation in North and South 
Dakota and the Colville Reservation and Off-Reservation Trust land in 
Washington State, which eliminated critical testing of methods for the 
2020 Census. These field tests would have helped the Bureau evaluate 
methods for counting people in tribal areas lacking street addresses, 
and test methods of making in-person counts in Native households. 
Inadequate funding has compelled the Census Bureau to announce 
``pauses'' and modifications for key 2020 Census activities, which 
could greatly diminish the Bureau's ability to take an accurate, cost-
effective census and is expected to increase the disproportionate 
undercount of American Indian and Alaska Natives, especially those 
living in rural, lowincome, geographically isolated, and/or 
linguistically isolated households.
Overall Recommendations
    NCAI urges Congress to ensure a sufficient funding ramp-up for the 
2020 Census in Fiscal Year 2018 and beyond, without undermining other 
core programs such as the American Community Survey (ACS), Economic 
Census, and other economic and demographic surveys and programs (such 
as the Current Population Survey (CPS) and Small Area Health Insurance 
Estimates (SAHIE), all of which are critical to monitoring the well-
being of American Indians and Alaska Natives. NCAI also includes two 
non-funding recommendations to ensure a successful 2020 Census: urging 
strong, permanent, and nonpartisan leadership for the Census Bureau and 
opposing the addition of a citizenship question.
Funding Details
    The FY 2018 continuing resolution that runs through March 23, 2018 
provides a temporary adjustment of an additional $182 million for the 
Census Bureau to meet necessary deadlines in preparing for the 2020 
Decennial Census. That amount falls short of the Administration's 
revised FY 2018 funding request of +$187 million over the President's 
original budget, but it is at least a first step toward full funding. 
NCAI continues to support the amount needed to fully fund critical 
outreach, promotion, and partnership activities in the full year 
appropriations bill for FY 2018.
    NCAI urges Congress to enact a total of at least $1.848 billion for 
the Census Bureau in the final Omnibus FY 2018 appropriations bill, 
which Congress must pass and the president must sign by March 23 to 
avoid another CR or government shutdown.
    NCAI adopted resolution MKE-17-050, ``Support for Census Programs, 
Surveys, and Other Critical Preparations for Accurate Enumeration in 
the 2020 Census,'' which calls for full funding for the Census Bureau 
to meet updated cost projections for the 2020 Census. \11\
    Included in the $1.848 billion for the Census Bureau, NCAI supports 
a total discretionary appropriation of $270 million for Current Surveys 
and Programs, equal to the Senate Appropriations Committee mark and the 
FY 2017 appropriation.
    NCAI also supports a total discretionary appropriation of $1.578 
billion for Periodic Census and Programs, which is $140 million above 
the adjusted request for the 2020 Census program. This amount includes:

        T32020 Census: $1.127 billion, at a minimum, derived as 
        follows:

  <bullet> $987 million, administration's adjusted request

  <bullet> +$50 million for the contingency fund proposed by Commerce 
        Secretary Ross

  <bullet> +$80 million for development of the communications campaign 
        under Integrated Partnership and Communications contract (Y&R)

  <bullet> +$10 million to increase the number of Partnership 
        Specialists from 43 to 200 in FY 2018

    Further justification:
    An increase is needed for communications research and development 
(+$80 million). NCAI supports additional funding in FY 2018 to expand 
research and testing (including surveys and focus groups) of effective 
messaging for the growing number of communities, such as American 
Indians on reservations and Alaska Natives, at higher risk of 
undercounting. NCAI considers it critical that the creative development 
of the advertising campaign is on schedule. The Integrated Partnership 
and Communications (IPC) contract was awarded a year earlier than the 
2010 Census cycle, but budget delays and shortfalls in FY 2017 caused 
delays in funding the contract for this work. Unfortunately, messaging 
research and creative development for the advertising campaign are now 
behind the comparable schedule for the 2010 Census.
    NCAI supports restoring some level of testing in rural and remote 
areas in the next year, which includes methods used on American Indian 
reservations and in Alaska Native villages. With cancellation of two of 
three 2018 dress rehearsal sites, the Census Bureau will be forced to 
use methods and operations in these communities in 2020 that are 
untested or not fully tested, and which could lead to an undercount and 
cost increases.
    An increase is needed in the number of Partnership Specialists 
engaged in outreach to state, local, and tribal governments and 
community-based organizations (+$10 million). Congress should provide 
increased funding in fiscal years 2018 through 2020 for the Partnership 
Program and related promotion campaign, which will ensure the 2020 
Census is cost-efficient and can help constrain the cost of followup 
with reluctant, unresponsive households. The Tribal Liaison Program is 
a very important component of this partnership program in Indian 
Country and should be funded at no less than it was for the 2010 
decennial. Forty-three Partnership Specialists is insufficient to do 
the outreach and education necessary for the 2020 Census in an 
increasingly difficult civic environment. The first phase of the 2020 
Census communications plan is scheduled to start in a year, and some 
census offices will open early in 2019 to support preliminary census 
activities. Tribal officials and tribal `trusted messengers' at the 
grassroots level must be prepared to reinforce the Census Bureau's 
messages, explain census activities, and help identify candidates for 
temporary census positions. Tribes and tribal organizations will also 
need to address fears about census participation.
    NCAI urges that Congress request a cost estimate for the advance 
work needed in FY 2018 to increase the number of Area Census Offices to 
300 in FY 2019-FY2020 and to include additional funding for this 
activity in the final FY 2018 Omnibus Appropriations bill. NCAI 
supports the expansion of the Census Bureau's Areas Census Offices and 
census takers for peak census operations (2019-2020).
Census Leadership
    Census leadership is critical for the agency to carry out its 
mission of serving as the leading source of objective, quality data 
about the nation's people and economy. The Census Bureau's leadership 
must uphold its core principles of protecting confidentiality, sharing 
expertise, and conducting its work openly and fairly. The Census must 
be carried out in a non-partisan way, guided by a commitment to 
objectivity. This person must have an extensive background in 
demography or the statistical sciences and significant experience in 
the management of a large public or nonprofit organization.
    Right now, the need for strong, permanent leadership at the Census 
Bureau is more important than ever as the agency prepares for the 2020 
decennial count. NCAI urges the Administration to put forward 
candidates for Census Director and Census Bureau Deputy Director who 
can lead the agency in a nonpartisan, scientifically objective way. A 
nominee or appointment that undermines the credibility of the Bureau's 
role as a nonpartisan statistical agency would also imperil the public 
trust in the integrity of the 2020 Census and all census statistics.
Citizenship Question
    In December 2017, the U.S. Department of Justice requested to add a 
question about citizenship to the 2020 Census. The Constitution 
requires a count, regardless of citizenship or legal status, of all 
persons living in the United States on Census Day.
    Changes to the census form this close to 2020 Census planning would 
jeopardize the validity of the tests of alternative questionnaires and 
designs, which the Census Bureau has spent years testing. A change to 
the questionnaire now would impact the outreach and partnership 
strategies designed around different content. Changes to the form would 
potentially have adverse and unintended consequences for 2020 census 
operations and the accuracy of the data.
    Adding a citizenship question could also have cost implications if 
added this late in the 2020 Census cycle. The self-response rates that 
the 2020 Census Operational Plan bases staffing levels on did not 
include a question on citizenship. Experts expect that adding a 
question on citizenship will lower initial response, leading to an 
expanded Nonresponse Follow-up operation, which will increase the cost 
of the census without improving accuracy. NCAI opposes the Justice 
Department's request to add a citizenship question to the decennial 
census.
Conclusion
    On behalf of the National Congress of American Indians, we thank 
you for holding this hearing to ensure Indian Country counts. The 
decennial census is a foundational tenet of American democracy and 
central to our representative form of government. A fair democracy 
requires an accurate population count, including throughout Indian 
Country. We urge the Committee to address the funding and policy 
concerns raised in this testimony, all issues that are critical to 
making sure American Indians and Alaska Natives are accurately counted.
ENDNOTES
    1 U.S. Census Bureau. (2012). ``Census Bureau Releases Estimates of 
Undercount and Overcount in the 2010 Census'' accessed at https://
www.census.gov/newsroom/releases/archives/2010_census/cb12-95.html

    2 Leadership Conference Education Fund. (2018). Table 1a. States 
Ranked by Number of American Indian/Alaska Natives (race alone or in 
combination) living in Hard-to-Count (HTC) Census 2 Leadership 
Conference Education Fund. (2018). Table 1a. States Ranked by T 
Nraucmtsb. eArc ocef sAsmede raitc an Indian/Alaska Natives (race alone 
or in combination) living in Hard-to-Count (HTC) Census Tracts. 
Accessed at http://civilrightsdocs.info/pdf/census/2020/Table1a-States-
Number-AIAN-HTC.pdf

    3 O'Hare, William. (2017). 2020 Census Faces Challenges in Rural 
America. National Issue Brief #131. University of New Hampshire, Carsey 
Research

    4 O'Hare, William. (2017). 2020 Census Faces Challenges in Rural 
America. National Issue Brief #131. University of New Hampshire, Carsey 
Research

    5 Leadership Conference Education Fund. (2018). Table 1a. States 
Ranked by Number of American Indian/Alaska Natives (race alone or in 
combination) living in Hard-to-Count (HTC) Census Tracts. Accessed at 
http://civilrightsdocs.info/pdf/census/2020/Table1a-States-Number-AIAN-
HTC.pdf

    6 ``Table B17001C: Selected Population Profile in the United 
States: 2015 American Community Survey 1-Year Estimates.'' U.S. Census 
Bureau, Retrieved 13 December 2017. Available at https://
factfinder.census.gov/bkmk/table/1.0/en/ACS/15_1YR/B17001C/0100000US/
0100089US.
    7 The Native median age on reservations is 29.1 years compared to 
the U.S. median age of 37.8 years. ``Median Age by Sex (American Indian 
and Alaska Native).'' U.S. Census Bureau, Retrieved 2017. Available at: 
https://factfinder.census.gov/bkmk/table/1.0/en/ACS/15_1YR/B01002C/
0100000US/0100089US
    8 2012-2016 5-year ACS estimates by land area
    9 C2PO 2010 Census Integrated Communications Campaign Research 
Memoranda Series, No. 11, ``Census Barriers, Attitudes and Motivators 
Survey Analytic Report'' May 18, 2009
    10 ``Trends in Indian Health: 2014 Edition.'' Indian Health 
Service, March 2015. Available at https://www.ihs.gov/dps/publications/
trends2014/
    11 MKE-17-050 ``Support for Census Programs, Surveys, and Other 
Critical Preparations for Accurate Enumeration in the 2020 Census'' 
accessed at http://www.ncai.org/resources/resolutions/support-for-
census-programs-surveysand-other-critical-preparations-for-accurate-
enumeration-in-the-2020-census

    The Chairman. Thank you, President Keel.
    Mr. Tucker.

 STATEMENT OF JAMES T. TUCKER, PRO BONO VOTING RIGHTS COUNSEL, 
                  NATIVE AMERICAN RIGHTS FUND

    Mr. Tucker. Chairman Hoeven, Vice Chairman Udall, and 
members of the Committee, on behalf of the Native American 
Rights Fund, thank you for examining how to make Indian Country 
count in the 2020 Census.
    The 2020 Census is one of the foremost civil rights issues 
in Indian Country. It serves as the keystone for our 
representative government. Past undercounts have deprived 
hundreds of thousands of Native Americans of their voice in 
government. Without an equal voice in elections, Indian Country 
is deprived of access to the resources and policy decisions 
that are so desperately needed in some of the Nation's most 
economically disadvantaged communities.
    In the 2010 Census, the undercount of those living on 
tribal lands was 4.9 percent, more than double the undercount 
weight of the next closest population group.
    There are significant challenges to making Indian Country 
count. Historical distrust of the Federal Government often 
deters responses. One-third of all Native Americans, 1.7 
million people, live in hard-to-count census tracts, including 
geographically isolated rural areas.
    Native Americans had the lowest census mail response rate 
in the 2015 National Content Test, which was exacerbated by 
lack of traditional mailing addresses and homelessness. Native 
Americans have the highest poverty rate of any population 
group, at 26.6 percent. On federally recognized Indian 
reservations in Alaska Native villages, that rate is 38.3 
percent.
    Over one quarter of all Native Americans are under 18 years 
of age, with a third of those below the poverty line. Language 
barriers and illiteracy are pervasive, especially among 
thousands of tribal elders in Alaska, Arizona, and New Mexico.
    Statistical sampling is more difficult in sparsely 
populated tribal areas. Most of Indian Country lacks reliable 
broadband access.
    Now, the complexity of factors contributing to the 
undercount in Indian Country may seem overwhelming, and it is 
at times, but Census leadership and staff are up to the task. 
They are impartial, dedicated professionals committed to making 
sure that every person is counted. But they must be given the 
tools and resources to do their jobs and make every person 
count in Indian Country.
    The starting point is for fiscal year 2018 appropriations 
of at least $1.848 billion for the 2020 Census. That funding is 
needed for the communications campaign, more partnership 
program specialists, and more area census offices. The planned 
field tests on the Colville and Standing Rock Reservations must 
be restored to test enumeration of areas with high 
concentrations of non-mailable addresses. More resources must 
be committed to outreach and partnership programs in Indian 
Country, including program funding to communicate in Native 
languages.
    Outreach coordinators will need to be hired from village 
and tribal communities to identify, plan, and execute the most 
effective methods of communicating about the importance of the 
census and how to ensure an accurate count is obtained.
    In addition, the Census 2020 questionnaire should be 
updated to incorporate the Census Bureau's recommendations from 
the 2015 NCT, including, number one, providing a write-in line 
instead of the check boxes for the three American Indian and 
Alaska Native categories under the very outdated 1997 Federal 
race and ethnicity standards; number two, giving relevant 
examples; and, three, offering enough space for multiple 
responses or to write a longer tribal or village name.
    Furthermore, trusted American Indians and Alaska Natives 
identified by tribal leadership should be enumerators and 
trainers for conducting the census in their communities.
    Finally, Census 2020 and the Bureau's leadership must be 
free from the taint of partisanship. The census has been 
managed by neutral, impartial, non-partisan professionals, 
including Interim Director Jarmin and Interim Deputy Director 
Lamas, who are intimately familiar with the Bureau's operations 
and are well respected by Bureau staff. Through such exacting 
leadership, census products are accepted and form the very 
cornerstone of the quality data that contributes to ensuring 
that we have government that is representative of all the 
people.
    NARF and its partners in the Native American Voting Rights 
Coalition look forward to working with this Committee to 
overcome the barriers in making Indian Country count in the 
2020 Census. We all need to work together to get the count 
right.
    Thank you very much for your attention, and I will welcome 
the opportunity to answer any questions you may have.
    [The prepared statement of Mr. Tucker follows:]

Prepared Statement of James T. Tucker, Pro Bono Voting Rights Counsel, 
                    Native American Rights Fund \1\

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Mr. Tucker.
    We will now have five-minute rounds of questioning, which I 
will start.
    I would like to start with you, Director Jarmin. How does 
the Census Bureau reconcile with BIA location, boundaries, and 
so forth on tribal lands, and, of course, that is necessary in 
terms of identifying your population counts? So how do you go 
through that process?
    Mr. Jarmin. So, as I mentioned in my testimony, Senator, so 
what we do is we work with BIA, we work with the Tribes, we do 
the Annual Boundary Annexation Survey, where we send maps out 
to not just to tribal organizations, but to local governments 
across the Country to make sure that we get any changes in 
boundaries incorporated into our geographic systems as quickly 
as we can.
    The Chairman. And is that a smooth process where you, by 
and large, have agreement, or is it contested?
    Mr. Jarmin. Yes, it is, by and large, a smooth process.
    The Chairman. Address, if you would for me, in some cases 
in tribal communities you have overcrowding and you may have 
multiple families living in one residence, and you may have 
movement, you know, in terms of where they live and so forth, 
temporary addresses and all those kinds of things. So, how do 
you get an accurate count in those situations?
    Mr. Jarmin. That is a really good question, Senator. So, I 
think one of the things that we need to do better to strive to 
communicate to tribal communities is that there is sometimes a 
hesitancy to provide information about more than one family 
living in a particular house. The data that we collect are 
confidential and used for statistical purposes only, and 
perhaps could be used to make the case for more housing 
assistance if we could get a complete count.
    So we need to make sure that our enumerators are trained to 
identify when it looks like there may be additional people in 
the house, to ask the right questions, to sort of suss out what 
the right count is. We just want to get the count; we don't 
provide that information to anybody other than ourselves, and 
it will be kept confidential.
    The Chairman. Do you feel that you are getting through with 
that message and that you are getting people to come forward 
and be counted, versus, you know, what has been a reticence in 
some cases to provide information?
    Mr. Jarmin. I do think there is some improvement that could 
be made, but we are successful some of the times; some of the 
times we are not successful. So I think more training, more 
focus on that particular issue will be helpful in 2020.
    The Chairman. Ms. Gore, would you talk about how do we 
reach geographically isolated communities and what are some of 
the things that you think are successful and can be successful?
    Ms. Gore. I would say there are a number of things. I would 
say, first of all, having a partnership specialist contacting 
them, they work within a region and can help with messaging and 
outreach, help the Tribes develop that. I think that is 
critically important. And in 2019 Census will begin developing 
complete count committees. Those also work on a regional basis, 
and it helps to educate those at the local level, number one, 
the importance, how to develop that cultural sensitivity in the 
messaging, how to conduct the outreach, who should be engaged, 
and really get the message out early, before census begins in 
2020. That is what I would suggest.
    Our State has already begun with an Alaska stakeholders 
meeting. We have begun our conversation by looking at 2010 and 
where our challenges were and informing Census, working with 
them to inform them where our challenges were as a State in 
those remote communities so that they could be prepared and we 
could work with them to get some of those challenges or 
barriers taken down before 2020.
    I hope that answers your question, Chairman.
    The Chairman. Yes. These partnership specialists, talk 
about them. How do you make sure you get good partnership 
specialists that can really get that job done?
    Ms. Gore. Well, I can speak only for my State, and, in our 
region, we worked with Jamie Christy, who is the Regional 
Director out of Los Angeles, and he advertised for an Alaska 
Native to be that partnership specialist. He recognized that 
that was an opportunity for the State; that our hardest to 
count communities needed that representation, and, indeed, we 
have a representative that is Alaska Native, and we are pleased 
to have her.
    The Chairman. Yes. I mean, you need somebody that can kind 
of connect, right?
    Ms. Gore. Absolutely.
    The Chairman. And break through some of the reticence, and 
to come forward and also that understands your State and how to 
work with people.
    Ms. Gore. Absolutely. I would just say that Census was 
great at reaching out to us and asking us to help identify 
people that could apply for that position. So, the Census 
Bureau didn't just simply put out an ad; they did some outreach 
with those of us that had boots on the ground, and I sincerely 
appreciate that effort. It did bring some new names forward, 
and I appreciate that they took our recommendations, and we 
have, I think, a very good representative today.
    Thank you.
    The Chairman. And then just one other question for 
President Keel. How about technology? Have you seen things in 
the technology world that can really help on the Reservation?
    Mr. Keel. Absolutely. The outreach from tribal governments 
can put the word out, can get the sample ballots and sample 
types of documents out to the citizens is very helpful, but 
there is a problem, as has been noted. Not all communities have 
broadband, not all of our communities have access to the 
Internet, so that sometimes could be a problem. But the 
electronic and technology today does allow us to interact with 
our citizens a great deal more effectively.
    The Chairman. Vice Chairman Udall.
    Senator Udall. Thank you.
    Before I begin here, let me just thank President Keel on 
his inaugural address. I was there to hear it and it was 
excellent, and I think he really laid out a good agenda for 
Indian Country.
    Mr. Keel. And we thank you, too, Senator, for your 
response.
    Senator Udall. Well, thank you. Thank you very much.
    Mr. Keel. Thank you.
    Senator Udall. And we also have in the audience the 
Governor of the Laguna Pueblo, Virgil Siow. He is back there.
    Virgil, good to see you. Welcome. Good to have you here on 
this issue.
    One important area where the Administration's fiscal year 
2019 budget falls short yet again is funding for the Census 
Bureau's partnership program, which entrusts local groups with 
promoting participation in Indian Country.
    Mr. Jarmin, according to written testimony for this 
hearing, the Bureau lags far behind in hiring partnership 
staff. By some estimates, the Bureau has only hired about 40 
partnership specialists. In 2010, the Bureau hired 3,800. And 
now we are hearing the Bureau only plans to hire 1,000.
    Can you provide us an update on the Bureau's progress? And 
why would you hire less than a third from what you used in the 
last census, and you still, with all of those partnership 
people, had a 5 percent undercount?
    Mr. Jarmin. Thank you, Vice Chairman, for the question. So, 
in our lifecycle cost estimate, which we worked very carefully 
with the secretary and department staff last year to sort of 
remap what the resources needs were going to be to get done to 
keep us on the critical path to completing a fair and accurate 
census, one of the things we looked at was the communication 
and partnership programs. We have $500 billion for the 
advertising program and about $248 billion for the partnership 
program. Those are both substantial increases over what we did 
in 2010.
    For the partnership specialists, in particular, we had 800 
of those in 2010, and the balance were what we call partnership 
assistants; and many of those were hired with money that came 
from the Recovery Act. So, this time we will be putting more 
partnership specialists on the ground. This is an area where 
you all can help us. I mean, we really need to have our fiscal 
year 2019 budget on time so that we can start that process in 
October. We will be probably starting, you know, posting some 
of those jobs over the summer so that we can kind of get people 
in the door and up and running as soon as we can. But, again, 
it is going to be, if we are on a CR again, that is going to 
put us off our timing a little bit.
    Senator Udall. Are you intending, with the assistants, to 
come up to about the same number as in 2010?
    Mr. Jarmin. So, right now we do not have a plan to hire 
that many of the assistants, no.
    Senator Udall. Of the assistants.
    Mr. Jarmin. Yes.
    Senator Udall. And didn't they help a lot in bringing the 
undercount down? I mean, if you go back to 1990, with a 12 
percent undercount, so it seems to me we really need to focus 
on that.
    But let me shift over here to President Keel. NCAI played a 
vital role during the last census with Indian Country counts. 
Can you discuss NCAI's plans for partnerships this next census?
    Mr. Keel. Thank you, Senator, for that question. Outreach 
to Indian Country is critical. In fact, NCAI did conduct a lot 
of outreach in 2010, and it is important that we do that again. 
We do as much as we can outreach to all of Indian Country to 
get the word out, but it is also critical and we want to add 
that census funding and policy issues, they cause us to 
shoulder a lot of the burden that at times puts a strain on our 
resources as well.
    We do as much as we can to partner with them, and we will 
do our very best to get the word out to all of our communities, 
even those that are most remote, to make sure that they 
understand how important this is. But it does cause an 
inordinate amount of work on a limited number of staff.
    Senator Udall. Thank you.
    The census can have a profound influence on the issue of 
voting accessibility, everything from a constituent's voting 
district to the availability of language assistance at the 
polls.
    Mr. Tucker, can you please explain the importance of fully 
funding the data collection efforts as it relates to voting 
language assistance? And then I know you probably also have an 
opinion on this partnership specialists and whether they are 
sufficient in numbers, and you have heard Mr. Jarmin's 
testimony. Please go ahead.
    Mr. Tucker. Thank you, Senator. I will start off with the 
partnership program. Just by way of example, taking what Ms. 
Gore said about having one program specialist currently with 
five States, in your own home State currently, the Native 
language program that is in place, and Secretary Oliver's 
office has eight full-time employees, four of them who are 
bilingual--I am sorry, eight of whom are bilingual in four 
different Native languages. That is just for four counties that 
are largely in the northern part of the State.
    So, the point to emphasize here is that the Census Bureau 
really does need more to be effective because it is a very big 
ask.
    In terms of language assistance, turning to the American 
Community Survey briefly, the issue is that if you underfund it 
for even a single year, it can jeopardize the ability of the 
Census Bureau to make accurate language determinations, which 
are done on a rolling five-year basis.
    And then, of course, the other part of voting and census is 
that the Public Law 97-141 data is the building block for 
everything that we do, whether it is apportionment, 
redistricting, or in instances in which organizations like NARF 
have to bring voting rights litigation, we need the data for 
both the voting blocks, as well as the socioeconomic data to 
demonstrate the violations.
    Senator Udall. Thank you, Mr. Tucker.
    And I know, Ms. Gore, you made it really clear that you 
didn't think they were hiring enough partnership specialists at 
this particular point, and you pointed out what the Alaska 
situation was, so thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski?
    Senator Murkowski. Thank you, Mr. Chairman. And I thank you 
for the focus on the partnership specialists, and, Carol, your 
testimony again given by way of example.
    We all know that folks are prepared to work hard as we move 
towards the actual count, but you can only do as much as you 
can possibly do; and recognizing not only the human resource, 
but the resource behind the count is very important going 
forward.
    I wanted to ask you, and, again, this is to you, Ms. Gore, 
when you responded to the Chairman when he asked about how you 
reach out to these very rural areas, you said that you looked 
to the 2010 Census and the count, and the lessons learned 
there.
    From just that, your lessons learned, and let's use Alaska 
as a specific example, what are we doing with, again, some of 
these more remote communities that we didn't do in 2010? I want 
to hear a couple of the best practices that you are 
anticipating.
    Ms. Gore. Sure. Thank you for the good question, Senator 
Murkowski. It is good to see you. I would say, first of all, 
lessons learned in 2010, we learned that boots on the ground 
really mattered; that the absence of boots on the ground in 
remote Alaska, I would say, and not just rural Alaska, where 
there is no infrastructure to get anyone in to some of our 
smaller communities except by plane or boat or a snow machine 
if you are there in January, was really, really critical.
    Also, I would say engaging those communities in advance so 
that they were educated about the importance of census. There 
is almost nothing more important to our small communities than 
Federal funding, and when we are working with communities that 
have maybe less than 25 individuals living in a community, they 
need to be engaged, and they need to be engaged by tribal 
leaders who understand the importance of that. So having an 
earlier education has also mattered in remote and rural Alaska.
    I would say, also engaging our Alaska Native regional 
corporations who can help to communicate. Using those 
partnerships has helped to save the Federal Government money 
because we have that early engagement. It is not just boots on 
the ground, but it is also communicating to Census that 
telecommunications is not going to work; we have to have paper 
methods to communicate with people that live in remote and 
rural Alaska.
    We know that broadband is not there yet; we know they don't 
have accessibility. Sometimes we can't even apply for a grant 
on a timely basis because there is no place through which to 
work on an online system.
    So those are some of the examples I would use, and I am 
sure they are shared by other remote and rural communities in 
the lower 48 States, we call them.
    Thank you for that question.
    Senator Murkowski. I appreciate that and I appreciate your 
last point about having a hard copy.
    It is actually pretty fortuitous, Mr. Chairman, because 
just last week I was the designated resident of this particular 
address here in Washington, D.C. I received the American 
Community Survey. I was randomly chosen. I was told that my 
response is required by law. And I looked at it and it says I 
am supposed to complete this survey online as soon as possible 
at respond.census.gov/acs. I am sorry, I wasn't going to fill 
this out online; I wasn't going to do it. And then I get to the 
next line, the next paragraph that says, ``If you are unable to 
complete the survey online, there is no need to contact us; we 
will send you a paper questionnaire in a few weeks.'' So, being 
the good taxpayer that I am, I am waiting for my paper 
questionnaire.
    I did get a follow-up just yesterday. This is very 
fortuitous, Mr. Chairman. Just yesterday I got a message from 
the Director of the U.S. Census Bureau, who reminded me that I 
should have received my instructions once again to go online, 
and I am required by law to do it.
    Now, I am not too worried, but I do worry about some of our 
seniors in our very remote areas who look at this and say, my 
gosh, my response to this is required by law, and I have to do 
it by going online. I don't have to do it by going online; I 
can wait.
    But I do think that this is, again, one of these examples 
where we need to make sure that we are reaching people the way 
that they can be reached; and many people cannot be reached, or 
don't want to communicate, by the Internet, so making sure that 
we have this hard copy. So I am awaiting that, and then at that 
point in time I will be that resident at this household who 
will comply, but until then, don't expect me to do it online.
    I do want to ask, and I know that my time has expired here, 
but as we are collecting these, these are randomly assigned to 
households. Do we, in these random assignments, is there equal 
emphasis on rural and outlying areas as there is in urban 
centers? Do you know, Mr. Jarmin?
    Mr. Jarmin. Well, thanks for the question, Senator 
Murkowski, and we really appreciate you filling out your ACS. 
As you heard, the data are critical.
    Senator Murkowski. Yes. I will get to it.
    Mr. Jarmin. And we do do it electronically and we try to 
encourage people to do it electronically because we get better 
data. It is easier for us to process and it provides the extra 
resources that we might need to really reach out to the folks 
who can't do it online, so it is important that the people who 
can fill it out in the most efficient and high quality manner.
    Senator Murkowski. You might convince me to do it online to 
save you money.
    [Laughter.]
    Mr. Jarmin. So the ACS is a stratified survey where we try 
to make sure that we can publish statistics for certain areas, 
so some rural areas may be oversampled for us to be able to 
publish data for a rural area. So you might get a higher 
sampling rate amongst a community where there it is less dense. 
So it does impose a slightly higher burden, but we can't 
publish data if we don't do that; we just wouldn't be able to 
publish data for many communities in Alaska or the American 
West if we didn't do that.
    Senator Murkowski. I understand.
    Thank you, Mr. Chairman. Thank you all.
    The Chairman. Senator Murkowski, that was excellent. 
Nothing like a concrete example to know what we are dealing 
with. And I agree with you 100 percent. I mean, obviously, most 
people do it online, but I think having that backup and saying, 
hey, if you don't want to do it online, you know, a paper copy 
is coming. Very important and point really well made.
    Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you, Chair Hoeven and Vice Chair 
Udall, and thank you all very much for being here today. I have 
a couple of questions for Mr. Jarmin.
    As Senator Heitkamp observed, and I think also President 
Keel, these field tests for the new procedures for 
administrating the census in Indian territories and Indian 
communities were cancelled due to lack of funding, so I am 
wondering if you can just tell us a little bit about the 
consequences of this. Was the Bureau able to salvage anything 
from that process that might be incorporated into kind of where 
we go from here?
    Mr. Jarmin. Well, thank you, Senator Smith. So, we did not 
take that decision lightly. We designed those tests; we 
intended to carry them out. There was some budget uncertainty, 
as my fellow witnesses attested to, so we needed to make a 
decision that we thought could best keep us on the critical 
path to the census.
    We weren't testing any procedures that were particularly 
new in Indian Country. Obviously, for all the reasons that have 
been stated, we do plan to have lots of boots on the ground; we 
do plan to use a lot of the traditional methods and to rely 
really heavily on partnership and outreach to sort of get the 
word out and drive response.
    But one thing that we were disappointed that we were not 
able to test was our systems in areas of low connectivity, so 
our field staff will be using an iPhone when they go out. That 
needs to work both in the connected and a disconnected state. 
So we were able to, in the 18 end-to-end test, which is ongoing 
right now, the address canvassing part of that that occurred 
last fall, we were able to test a lot of that in West Virginia, 
which had a large area that had limited connectivity as well, 
and partly in Pierce County, Washington. So we were able to 
test those systems, so we were able to salvage a good part of 
what we really wanted to learn, but, again, it was a decision 
that we made that we thought gave us the best opportunity to be 
successful.
    Senator Smith. Well, thank you. And I want to be clear I 
have a lot of respect for the professionals at the Census 
Bureau; the question is whether you have the resources and what 
you need to be able to do your job.
    So, this brings me to another thing I am kind of concerned 
about. We are expecting to have, I understand, three area 
offices in Minnesota for the 2020 Census; one in Duluth, one in 
Minneapolis, and one in the Rochester area. But we won't be 
able to have any offices in basically the western two-thirds of 
the State, where many of our largest Native communities are. 
These offices will be hundreds of miles away from places like 
White Earth and Red Lake, and other places.
    So, can you help me, can you just talk a little bit about 
whether there is any chance, how are we going to best serve 
this vast area? It is a lot if you are in Minnesota, but I 
think about the challenges that Senator Murkowski will have in 
Alaska dwarf this in many ways. But could you just talk a 
little about what we can do about this, if anything?
    Mr. Jarmin. So I do think that our plan for staffing the 
field offices and how that is going to manage down to the 
enumerator in this census is going to allow us to have a much 
less dense area office network, and a lot of that is because we 
are not going to have as many sort of face-to-face meetings. 
Work will be doled out on a daily basis to enumerators in an 
automated fashion, as opposed to getting paper lists and stuff 
like that from your field supervisor, so I think we are pretty 
confident we will be able to address that. Obviously, if more 
would be margin would be a little bit better, but I don't know 
if it would really justify the cost.
    Senator Smith. One of the things we are doing in Minnesota, 
and it sounds like it might be similar to what you are working 
on, Ms. Gore, in Alaska, is really developing a Minnesota-
specific communications plan for the census, and we are 
specifically working to engage American Indian communities in 
that process early on. I think that was a best practice that 
you identified, Ms. Gore, as we were thinking about this, and I 
am really hopeful that this will help us.
    In Minnesota, we had one of the higher report rates in the 
Country, at 81 percent, which is typical of my State; we like 
to do what we are supposed to do. But the rates dropped to the 
mid-50s in our Native American communities and surrounding 
counties. So I am glad that we kind of like think about what 
these best practices are and maybe also incorporate them at the 
Federal level also.
    Thank you very much, Mr. Chair.
    The Chairman. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you. Thank you, Mr. Chair and 
Ranking Member Udall.
    Welcome to everyone. Thank you for being here.
    Mr. Tucker, welcome, from Las Vegas, I understand. Welcome 
here. That is fantastic.
    Mr. Tucker. Thank you.
    Senator Cortez Masto. President Keel, I would like to ask 
you a question. It has been widely reported that the DOJ 
requested that the Census Bureau include a question on 
citizenship in its 2020 Census, and I joined a letter in 
January with Senator Feinstein and some of my other Senate 
colleagues to Secretary Wilbur Ross expressing serious concerns 
about the DOJ's request. I have expressed my deep concern about 
this at the Senate Commerce Committee hearings as well, and 
have been deeply troubled by reports of minority populations 
being significantly underenumerated. In fact, this is a problem 
that we know happens in the Latino communities, where 400,000 
young Latino children ages 0 to 4 were uncounted in 2010, 
including 6,000 in Clark County, Nevada.
    Under the current Administration, immigrants and minority 
groups are fearful for the security and safety of their 
families, and the inclusion of a question on citizenship could 
impact the accuracy of the census and its data. Given this 
Administration's rhetoric and actions relating to immigrants 
and minority groups, the DOJ request on a question on 
citizenship is alarming.
    You note in your testimony, President Keel, that NCAI 
opposes the citizenship question in the census. Can you 
elaborate about NCAI's concerns that such a question would 
suppress participation in the census?
    Mr. Keel. Well, thank you, Senator, for that question. I 
think it goes back to what we spoke about earlier, and in our 
testimony we talk about the mistrust and the historic 
misrepresentation or how this data could be possibly used. So I 
think when we talk about the cynicism or the mistrust or 
distrust of the forms are those forms themselves, and I think 
you mentioned just a moment ago about the Latino and the other 
populations, the Native populations have those same fears and 
those same cynical responses, I believe.
    Senator Cortez Masto. Right.
    Mr. Tucker, do you have anything to add to that?
    Mr. Tucker. I would agree with President Keel. In fact, it 
is very interesting, because just turning to the State of 
Nevada, for example, we conducted a study of four States, 
including Nevada, examining how did American Indians feel 
towards the Federal, State, and local governments.
    Nevada actually had the highest level of trust in the 
Federal Government, but it was 28 percent. And what we see 
consistently across Indian Country, regardless of which part of 
Indian Country we are talking about, is Native Americans 
believe a lot more and have a lot more trust in their own 
tribal governments than they do in any non-tribal government. 
So, I would agree that any asking of a citizenship question 
just erects another barrier that in all likelihood is just 
going to make more people not want to participate and, frankly, 
not report accurately.
    Senator Cortez Masto. Right. Thank you.
    Mr. Tucker, let me stay with you. In your testimony, you 
observe that a fair and accurate census and a comprehensive 
American Community Survey must be considered among the most 
significant civil rights issue facing the Country today. This 
is something I hear every day when I engage with my Tribes 
across the State; and, in fact, a constituent wrote to me about 
the hardship many Shoshone and Paiute people endure just to 
vote, and she just wrote ``Many indigenous people live on the 
Duckwater Reservation and have to drive a long way to vote.''
    I want her to know that our Native American people count, 
that we see them, we are listening to them. My question to you 
is an accurate and accessible census is a constitutional 
responsibility, and I am proud to work on this Committee to 
ensure its accuracy. Can you, though, please discuss the 
importance of census data in light of the Supreme Court's 
Shelby County decision and the increased necessity of 
litigation to challenge unlawful Native vote suppression?
    Mr. Tucker. It is a great question and it is very timely, 
again, because we are coming up on, I believe it is, the fifth 
anniversary of Shelby County. So, in terms of what Native 
groups have to do through groups such as NARF, we are having to 
bring a lot more Section 2 cases, which are the general 
nondiscrimination provisions under the Voting Rights Act. To do 
that, it is heavily dependent on census data.
    Two of the three Gingles preconditions to establishing vote 
dilution rely directly on census data, geographical compactness 
and racial bloc voting. And then, of course, the other piece of 
it is the Senate factors. Many of the Senate factors to 
establish a violation require socioeconomic data and data that 
basically shows that Native candidates who have to compete in a 
very, very large district may be economically disadvantaged and 
can't do that.
    But the best example actually comes from Nevada, from just 
before the 2016 election. In the case of Sanchez v. Cegavske, 
it actually involved a situation where four Tribes in the 
northern part of Nevada sued the State of Nevada and some of 
the counties because of distance issues in order to get to 
voter registration and in-person voting; and there the critical 
component that we needed from Census was to show lack of access 
to reliable transportation in households and what the impact on 
socioeconomically disadvantaged groups was in trying to drive 
distances, such as, for example, when you talk about Duckwater 
in Nye County, they are very, very great distances and they do 
have a disenfranchising effect.
    Senator Cortez Masto. Thank you.
    I notice my time is up. Thank you so much for being here 
today and the discussion.
    The Chairman. Vice Chairman Udall?
    Senator Udall. Thank you, Mr. Chairman.
    As we all know, the census is a critically important 
government function, and yet the current Administration has yet 
to nominate a qualified candidate to lead the Census Bureau in 
the critical years leading up to 2020. That is not to in any 
way disparage the career folks that are out there; they spend a 
lot of time working on this, I know. And I find this 
problematic for a number of reasons, including a lack of 
accountability.
    I take my oversight duties very seriously and want to 
ensure we have a successful 2020 Census, one that is data-
driven and free of politics.
    President Keel, do you see this leadership vacuum as a 
problem leading up to the 2020 Census?
    Mr. Keel. Thank you, Senator Udall. Leadership at the 
Census Bureau is critical to the success of the census. When 
you say a leadership vacuum, we believe that it is important 
that we have strong leadership, and it is important for the 
whole direction. When you talk about how we conduct the census 
and how it is understood and received in Indian Country, as 
well as across the Country, I believe it is important that we 
get strong leadership in place now so that we can move forward.
    Senator Udall. President Keel, I share your concern over 
reports that the Department of Justice requested the Census 
Bureau include a question on citizenship, a proposal that the 
National Congress of American Indians oppose. I oppose 
injecting politics into the census with these types of 
questions, which will likely have a chilling effect on 
communities that are already at risk of being undercounted, and 
I share that concern.
    Mr. Tucker, there have been additional reports of highly 
partisan candidates to senior roles at the Census Bureau and 
the Department of Commerce. Is this cause for concern for you 
with respect to ensuring that the census is done accurately and 
fairly?
    Mr. Tucker. It is, Senator, for two reasons. One, as many 
of you have already discussed, this is a constitutional mandate 
under Article I, Section 2 of the Constitution, and it has to 
be free of any sort of outlook that it could be tilting, you 
know, the count in favor of one party or another, or 
undercounting any particular group to favor one party or the 
other.
    The other issue is partisanship undermines the public faith 
that folks have in the Bureau; and, in doing that, that leads 
to the very sort of chilling effect that President Keel talked 
about. We don't want to make hard-to-count populations even 
harder to count either through partisan leadership or through 
questions such as a citizenship question that may make people 
more reluctant to participate.
    Senator Udall. President Keel, did you have a comment on 
the citizenship question?
    Mr. Keel. I was going to add that the Census Bureau has 
already developed and sent out questionnaires that are designed 
to answer those questions, so putting another question there 
just seems duplicative and more costly.
    Senator Udall. As I understand it, the message to the 
Census Bureau from tribal delegates has been loud and clear: 
hire and train locally. That means hiring trusted individuals 
from within each community to do everything from outreach to 
actual enumeration.
    Mr. Jarmin, what is the Bureau's plan for hiring American 
Indians and Alaska Natives from within each community? I think 
that one of the things that has come out here is are there 
going to be enough to reach these smaller areas, like others 
have talked about, where you have a community of 25 who may be 
very suspicious of strangers and outsiders, and somebody that 
knows them may be able to go in there and get a good count and 
encourage people to come forward with the information.
    Mr. Jarmin. Well, thanks, Vice Chairman Udall. Our plan 
definitely not only in Indian Country, but across the Country, 
is to hire enumerators who are representative of the 
communities that we are going to have them enumerating in, for 
many reasons, for trust, for language proficiency. It is 
absolutely critical to have a successful census that the people 
who are knocking on doors are people that households will open 
the doors to and can communicate with efficiently, so that is 
our plan. We will be working with the Tribes to identify not 
just the people who are going to do the knocking, but the 
people who are going to do the hiring, the local management, 
all tiers of the field staff.
    Senator Udall. Thank you.
    Senator Hoeven and I are both appropriators, and we take 
very seriously what you say in terms of when you get to 2019, 
have the budget in place. The positive thing for you is that we 
have a number now for 2019, and we should be able to work and 
get them a budget at the beginning of the fiscal year so that 
you can be prepared and get people out there.
    Thank you.
    Mr. Jarmin. We would be very appreciative of that, and 
anything that we can do to help you in that, just let us know.
    Senator Udall. Okay. Thank you.
    The Chairman. Senator Cortez Masto, any other questions?
    Senator Cortez Masto. No.
    The Chairman. Okay, if there are no more questions, members 
may also submit follow-up written questions for the record, and 
the hearing record will be open for two weeks.
    Again, I want to thank the witnesses for your time and your 
testimony. We appreciate it very much.
    This hearing is adjourned.
    [Whereupon, at 4:08 p.m., the hearing was concluded.]

                            A P P E N D I X

 Prepared Statement of Hon. Bill John Baker, Principal Chief, Cherokee 
                                 Nation

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
